<html>
<title> - AN INSECURE FORECAST FOR CONTINUITY OF CLIMATE AND WEATHER DATA: THE NPOESS WEATHER SATELLITE PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                  AN INSECURE FORECAST FOR CONTINUITY
                    OF CLIMATE AND WEATHER DATA: THE
                    NPOESS WEATHER SATELLITE PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2008

                               __________

                           Serial No. 110-109

                               __________

     Printed for the use of the Committee on Science and Technology

      Available via the World Wide Web: http://www.science.house.gov




                   U.S. GOVERNMENT PRINTING OFFICE
43-349 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001

                                 ______


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           PAUL C. BROUN, Georgia
CHARLES A. WILSON, Ohio
ANDRE CARSON, Indiana
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            JAMES PAUL Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                             June 19, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     9

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................    10

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    11

                               Witnesses:

Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    27

Vice Admiral Conrad C. Lautenbacher, Jr. (U.S. Navy, Ret.), Under 
  Secretary of Commerce for Oceans and Atmosphere; Administrator, 
  National Oceanic and Atmospheric Administration (NOAA)
    Oral Statement...............................................    28
    Written Statement............................................    31
    Biography....................................................    39

Discussion
  Executive Committee Performance................................    40
  Continuity Concerns............................................    41
  The VIIRS Sensor...............................................    44
  The Gap Between Satellite Launches.............................    44
  More on the Executive Committee's Performance..................    46
  Acquisition Document Approval..................................    47
  Bureaucratic Delays............................................    50
  More on Acquisition Document Approval..........................    52
  Life Cycle Costs...............................................    53

             Appendix 1: Answers to Post-Hearing Questions

Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office.......................    58

Vice Admiral Conrad C. Lautenbacher, Jr. (U.S. Navy, Ret.), Under 
  Secretary of Commerce for Oceans and Atmosphere; Administrator, 
  National Oceanic and Atmospheric Administration (NOAA).........    61

             Appendix 2: Additional Material for the Record

Memorandum for the Secretary of the Air Force from John J. Young, 
  Jr., Under Secretary of Defense, dated April 30, 2008..........    70

Letter to John J. Young, Jr., Under Secretary of Defense, from 
  Conrad C. Lautenbacher, Under Secretary of Commerce for Oceans 
  and Atmosphere, NOAA, dated May 16, 2008.......................    72


 AN INSECURE FORECAST FOR CONTINUITY OF CLIMATE AND WEATHER DATA: THE 
                    NPOESS WEATHER SATELLITE PROGRAM

                              ----------                              


                        THURSDAY, JUNE 19, 2008

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  An Insecure Forecast for Continuity

                    of Climate and Weather Data: The

                    NPOESS Weather Satellite Program

                        thursday, june 19, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The Subcommittee on Energy and Environment meets on June 19, 2008, 
for further oversight on the National Polar-Orbiting Operational 
Environmental Satellite System (NPOESS). The Government Accountability 
Office (GAO) will testify on the latest report concerning the troubled 
weather satellite program and the Administrator of the National Oceanic 
and Atmospheric Administration (NOAA) will respond. Recent events have 
once more raised questions about the stability of the program, 
including a new threat to the most critical instrument and decisions 
that may create new management risks.

Witnesses

Mr. David Powner, Director, Information Technology Management Issues, 
Government Accountability Office
    Mr. Powner is the head of the GAO team continuously monitoring the 
NPOESS program since 2001. He will present the latest in the continuing 
series of reports commissioned by the Committee on this satellite 
program. He will also respond to changes that have occurred in the 
program's status since GAO completed work on its review.

Vice Admiral (Ret.) Conrad Lautenbacher, Administrator, National 
Oceanic and Atmospheric Administration
    The NPOESS program is fundamental to NOAA's weather missions, and 
Admiral Lautenbacher, as head of NOAA, shares responsibility for 
managing the development program. Lautenbacher serves as a member of 
the program Executive Committee (EXCOM) with representatives of NASA 
and the Air Force, NOAA's partner agencies. Because the GAO report 
raises issues requiring action by the EXCOM, Admiral Lautenbacher has 
been asked to provide NOAA's testimony.

Issues for Discussion

A. Life Cycle Cost Increases
    Just over a year ago, the Subcommittee held its previous hearing on 
the NPOESS program. At the time, efforts were underway to implement 
decisions imposed on the program after a so-called Nunn-McCurdy review 
by the Department of Defense. The NPOESS program is being conducted 
using the Air Force procurement system, and at the point that the 
program cost estimate rose more than 25 percent beyond the approved 
baseline, DOD was required by law to execute a program recertification.
    In June 2006, the results of this recertification were announced. 
In brief, the estimate for acquisition cost rose to $11.5 billion (with 
an additional $1 billion to cover operating costs, making the total 
life cycle cost $12.5 billion). Only two satellites were guaranteed to 
be built, with the first launch scheduled for 2013. A decision to buy 
two more satellites, and to reconsider the program's management 
structure, was to be made in 2010. This contrasted with the previously 
baselined program, which anticipated purchasing six satellites at an 
acquisition cost of $7.4 billion with a first launch in 2008. The 
capabilities of the satellites were reduced, in that one of the major 
instruments (the Conical Microwave Imaging Sounder) was removed, to be 
replaced with a less-capable instrument on the second NPOESS satellite 
that would be launched in 2016. Also removed were instruments intended 
to extend the data records for monitoring the Earth's climate, and to 
track events on the Sun that had the potential to disturb the planet's 
geomagnetic environment.
    Mr. Powner reported to staff in a briefing June 11 that the life 
cycle cost for the program has apparently increased $1.1 billion, to 
$13.6 billion. Based on the data reviewed, he estimates that the NPOESS 
program expended $300 million in the last year to deal with the broken 
frame suffered by the Cross-Track Infrared Sounder (CrIS) during 
vibration testing, and to address the changes in the cryoradiator for 
the primary NPOESS instrument, the Visible Infrared Imaging Radiometer 
Suite (VIIRS). The problems with VIIRS ultimately resulted in another 
delay in delivery of the flight unit for the NPOESS Preparatory Project 
(NPP) mission,\1\ which slipped the launch date to June 2010.
---------------------------------------------------------------------------
    \1\ This precursor satellite, funded by NASA, was originally 
intended to allow NPOESS operators to practice with the major 
instruments before introducing them into the operational constellation. 
It has now taken on the additional function of carrying on climate 
monitoring responsibilities after the expected loss of NASA's Aqua 
satellite.
---------------------------------------------------------------------------
    Beyond this, GAO believes that the program life cycle cost will 
grow another $800 million to reflect an updated understanding of the 
likely operations and support costs. The NPOESS program recently 
undertook a review of the operations cost estimate, the first since 
2002. The DOD's independent cost estimators were also asked to prepare 
an estimate, which appears to be the first time an independent estimate 
on operations costs has been conducted. On June 12, NOAA briefed staff 
that the two estimates are being reconciled to determine what will be 
incorporated into the program baseline. They were reluctant to provide 
their own estimate of what that number would be.
    GAO's estimate came before NOAA informed staff of yet another 
threat to VIIRS that is under investigation. While preparing the unit 
for testing, some of the screws used to assemble the instrument were 
found to have their heads sheared off. Initial indications are that the 
posts into which the screws are inserted were manufactured improperly 
and so the screws did not seat properly. There is a possibility that 
the entire VIIRS instrument may have to be disassembled to install all 
new posts. If this is indeed the case, NPP will once again be delayed 
and there will be a further cost impact. The NOAA briefers hoped this 
will be avoided. In either case, this is not a technical issue that 
results from efforts to push technology. Despite the multiple layers of 
oversight that have been applied to the VIIRS instrument for some 
years, these surprises continue to occur and the program continues to 
be held hostage. It is interesting to note that this backsliding has 
occurred in the period following the transfer of the former NPOESS 
Program Executive Officer, Air Force Brigadier General Susan Mashiko, 
against the warning in GAO's previous report. Despite the fact that she 
was replaced by the System Program Director, Dan Stockton, it cannot be 
ruled out that these changes allowed slack to creep back into the 
program.

B. The EXCOM relationships
    GAO once again notes that major management documents have yet to be 
finalized and recommends that this be done as quickly as possible. The 
agencies received a new incentive to accomplish this goal. On April 30, 
2008, the Program Acquisition Executive, Under Secretary for Defense 
for Acquisitions, Logistics and Technology John Young, informed the 
program that failure to finalize all documents by August 31, 2008 would 
result in a cutoff of DOD funds.\2\ (see attached) Loss of DOD funding, 
by direction of the Committee on Appropriations, would require the 
Department of Commerce to cut an equal amount of funding. That would, 
of course, be a crippling blow to the program.
---------------------------------------------------------------------------
    \2\ Young, John. Memorandum for the Secretary of the Air Force, 
Joint Chiefs of Staff/J-* and Program Executive Office, Environmental 
Sensing. Subject: National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) Acquisition Decision Memorandum. Office of 
the Under Secretary of Defense for Acquisition, Technology and 
Logistics, Department of Defense, Washington, D.C. April 30, 2008.
---------------------------------------------------------------------------
    The NPOESS program is a unique entity, in that it receives its 
budget from two co-equal sources and is governed by an Integrated 
Program Office (IPO) where NOAA has program management 
responsibilities, the Air Force directs acquisition activities and NASA 
contributes technical support and manages the NPP mission. The Nunn-
McCurdy recertification of NPOESS in 2006 was driven by the goal of 
maintaining existing levels of operational weather capability. The 
staff was briefed on June 18 by Josh Hartman, the staff specialist for 
space and intelligence matters for Mr. Young, to describe the genesis 
of the memorandum. In brief, he described the memorandum as an effort 
to instill greater discipline into the NPOESS program. The continuing 
failure to complete agreements on the program management documents 
resulted in the establishment of the funding cut-off deadline of August 
31, 2008. Mr. Hartman agreed with GAO that the process had consumed an 
excessive amount of time, and Mr. Young's direction is intended to 
focus minds.
    Of particular interest was the discussion about the current status 
of these documents. In our briefing with NOAA, the message seemed to be 
that many documents were awaiting clearance by the Air Force. GAO 
seemed to have a similar view. Mr. Hartman, however, provided a chart 
he had received from Program Executive Officer Dan Stockton showing 
that decisions need to be made by NASA and NOAA as well. GAO's 
testimony highlighted issues relating to the new Memorandum of 
Agreement that is to define agency roles in the reconstituted program. 
There was indication that DOD was asking for changes after the other 
agencies had finished. Mr. Hartman agreed that DOD had not communicated 
effectively with its partners, but that there were statutory 
responsibilities for DOD that required certain language to be included 
and that he felt this had not been clear to NOAA and NASA.
    Mr. Hartman also discussed the requirements changes for NPOESS 
instruments described in Young's letter. These result from a June 2006 
agreement with the program user groups to prioritize schedule and cost 
over performance when conflicts arose among those three elements. One 
of the Nunn-McCurdy decisions was to allow instrument performance to 
fall back to a level equal to the performance of instruments on the 
existing satellites (DOD's Defense Meteorological Satellite Program or 
NOAA's Polar-Orbiting Environmental Satellites). Again, Mr. Hartman 
stated that the discussions underway to convert that decision into the 
actual numbers for inclusion in the program baseline had dragged on and 
needed resolution. The effect of Mr. Young's memorandum is to direct 
the program to continue pursuing the instrument performance levels laid 
out in the program specifications. Should it happen that trying to 
achieve those program improvements would result in schedule slips or 
cost increases, the EXCOM would decide when to authorize reducing the 
performance to so-called ``legacy'' level. Admiral Lautenbacher's 
response\3\ expresses concern that the guidance is not completely clear 
where the performance boundaries lie and requests that this be 
clarified. (see attached)
---------------------------------------------------------------------------
    \3\ Lautenbacher, Conrad C., Jr. Letter to the Honroable John J. 
Young, Jr. Office of the Under Secretary of Commerce for Oceans and 
Atmosphere, Department of Commerce, Washington, D.C. May 16, 2008.
---------------------------------------------------------------------------
    GAO provided the new Decision Memorandum and NOAA's response to 
Committee staff on June 11. They came as something of a surprise, and 
an effort was made to include Mr. Young as a witness at the hearing. He 
declined, due to the late date. The staff's meeting with Mr. Hartman 
allowed some insight into Mr. Young's intentions. Mr. Hartman disagreed 
that DOD has been seeking to escape from its commitment and stated Mr. 
Young hopes that greater discipline will allow the program as we know 
it to be completed. Had his memorandum been provided to the Committee 
earlier, he might have been able to make those points directly. Admiral 
Lautenbacher should be asked why the Committee did not receive the 
memorandum from NOAA in May, leaving it to GAO to bring it to our 
attention only a week before the hearing.
    The staff's meeting with Mr. Hartman also revived the issue of the 
effectiveness of the Executive Committee in managing the NPOESS 
program. Mr. Hartman has been participating in EXCOM meetings since he 
started working in Mr. Young's office last August. The EXCOM, he said, 
seemed to spend a great deal of time on status reports, and he often 
found that he left meetings wondering what had been accomplished. The 
languid pace of completing the management documents and executing the 
needed requirements changes in the program baseline reflected the 
difficulty the EXCOM had in reaching decisions. In the NOAA briefing, 
Mr. Stockton was asked directly if the funding cutoff reflected a 
feeling that the program need a ``kick in the pants'' to overcome 
procrastination. He said no. Yet this was precisely Mr. Hartman's 
explanation for the language in the memorandum.
    The Executive Committee is always presented to the Committee as the 
final decision point for NPOESS decisions that cannot be made 
elsewhere. Yet Mr. Hartman's description seems to show that it has 
reverted to the ineffective body that earned Committee criticism during 
the Nunn-McCurdy process. At that time, it appeared that EXCOM members 
were not even aware of how far the situation had deteriorated. Mr. 
Hartman believes that the EXCOM can accomplish its intended function 
with appropriate leadership--which Mr. Young appears to be willing to 
supply if necessary. There may also be other alternatives the Committee 
should consider.

C. Alternative management
    The NPOES program was tasked, as part of the Nunn-McCurdy decision, 
to evaluate possible alternative management structures in time to 
determine if Northrop Grumman should be replaced as system contractor 
in 2010. According to GAO's report, the resulting study was completed 
last September. Mr. Young asked for a status report on this effort in 
May and directed that it be completed by August 31. Admiral 
Lautenbacher should be asked to discuss the possible alternatives that 
the program has identified, and describe the risks and benefits the 
program can expect. A decision to change would be made at the time that 
the decision to transition from engineering to production is expected. 
This will also entail choosing to purchase the third and fourth NPOESS 
satellites. That decision is somewhat foreordained, given that nothing 
has been put in place to develop a follow-on system. Whether to then 
continue buying NPOESS satellites or inaugurate a new development 
program should be explored.

D. Ground system security standards
    GAO also highlights in its report that NOAA and the Air Force 
disagree on the level of security standards to be applied to the ground 
segment of NPOESS. The Department of Defense established the original 
security requirements for the ground-side elements. NOAA now believes 
that newer Federal Information Processing Standards should be applied. 
According to GAO, adopting NOAA's position would have a cost impact in 
the ``hundreds of millions'' of dollars. GAO's report indicates that 
the rework and retesting to implement new standards could affect the 
cost and schedule of what has to date been the lowest-risk part of the 
NPOESS program. Admiral Lautenbacher should explain why the benefits of 
making this late change--with its attendant risk--are worth the costs. 
He should also explain how such costs will be met if the decision is to 
go forward.

E. Climate sensor recovery
    Dr. John Marburger, Director of the Office of Science and 
Technology Policy (OSTP), testified at last year's hearing about the 
process underway to recover from the loss of the climate sensors. Both 
NOAA and NASA had collaborated on an analysis of the threats to climate 
monitoring posed by the loss of these sensors aboard NPOESS. The 
Subcommittee was concerned that OSTP might be moving too slowly; teams 
developing some of the climate sensors were preparing to disband.
    Since last year's hearing, decisions have been made to bring 
forward and refurbish the last CERES (Clouds and Earth's Radiant Energy 
System) sensor from the first NPOESS satellite to fly on NPP. A new 
CERES sensor will then be built for the first NPOESS flight. Another 
sensor, the Total Solar Irradiance Sensor (TSIS), was restored to the 
first NPOESS satellite. NOAA had requested funds to begin the CERES 
changes in the FY08 budget, but this was lost in the final omnibus 
appropriation. The agency cobbled together funds to permit steps to be 
taken to support an October 1, 2008 start. The agency also intends to 
begin the new TSIS sensor program on the same day, with delivery 
contemplated for December 2011.
    Success at restoring the CERES and TSIS sensors now depends on 
NOAA's request for $74 million in its FY09 budget. This is the first 
installment of what is intended to be a five-year, $74 million level-
of-effort program. GAO notes in its report that a plan for the long-
term restoration of the Nation's climate-monitoring capability is still 
lacking, and that the sensors announced to date only deal with the most 
immediate near-term threats of gaps in climate data. NOAA indicated 
that the level-of-effort proposal is intended to provide that missing 
plan, to develop additional sensors and to place them into operation. 
The agency has expressed concern that the contemplated continuing 
resolution may upset the progress made so far.
    Much still remains to be dealt with in terms of the capabilities 
lost from the NPOESS sensors. For example, the Aerosol Polarimetric 
Sensor (APS) program has now arrived at much the same spot that TSIS 
found itself in last year. APS will fly the prototype sensor on the 
upcoming Glory mission for NASA. A new design, it has been difficult to 
achieve the targets for precision and accuracy needed to meet the 
promised specifications and NASA has been frustrated with Raytheon's 
performance.\4\ Recently, however, the instrument has been meeting its 
test goals and is on track for delivery. The contract is therefore 
running down and the instrument team is likely to break up. NOAA told 
staff that the agency intends to evaluate the performance of the sensor 
before deciding whether to purchase more. This is consistent with the 
recommendations from OSTP's analysis, but means that there will likely 
be no option to fly a new sensor for some years after the end of the 
Glory mission. This will likely affect efforts to provide a more 
accurate understanding of the impacts atmospheric aerosols have on 
climate.
---------------------------------------------------------------------------
    \4\ APS is being built by the same Raytheon division responsible 
for the VIIRS instrument.

F. Space weather sensor recovery
    The second set of sensors demanifested from NPOESS in 2006 monitor 
the so-called ``space weather'' phenomena generated in solar flares and 
coronal mass ejections. These events can, under the right 
circumstances, affect satellite communications, overwhelm signals from 
the Global Positioning System, increase long-term cancer risks for 
airline crews and pilots flying in the polar regions or bring down 
power grids. The Air Force is particularly concerned because of the 
difficulty in discerning between natural interference with satellite 
command and control and deliberate efforts to impede communications as 
prelude to an attack.
    In January, the Office of the Federal Coordinator of Meteorology 
(OFCM) submitted its analysis of the impacts to the space weather 
program occasioned by the loss of the NPOESS space weather sensors to 
OSTP. The report concludes that ``[t]here are no planned missions to 
replace the space environmental sensing capabilities removed from 
NPOESS. A loss of continuity of critical measurements will occur when 
existing on-orbit operational systems complete their missions during 
the next decade.'' They judge that anticipated losses range from 
``moderate'' (for plasma, which can determine how badly communications 
are affected by solar events) to ``extreme'' (in the case of the 
Electron Density Profile measurement, without which it is harder to 
determine what is happening to satellites). While the sensors would not 
be available in time to monitor the approaching peak in the Sun's 11-
year cycle, they would arrive on station to carry through the next. 
NOAA states that they are now discussing a follow-on mission with NASA 
and the Air Force.
    While unrelated to the NPOESS sensors, the OFCM also noted that the 
primary early-warning space weather sensor, NASA's Advanced Composition 
Explorer (ACE), has passed its tenth anniversary. Originally designed 
for a two-and-a-half year mission, it continues in service to allow 
NOAA to provide advance warnings of one-half to one hour for solar 
events that will affect the Earth's atmosphere and magnetic field. Such 
warnings to airlines, power companies and communications firms give 
enough time to take steps to reduce disruptions in vital services. ACE 
is the latest instance of the lack of long-term planning for developing 
improved operational capabilities from research programs. Further, in 
May NOAA reported that the X-Ray Sensor on all of the newer 
Geostationary Operational Environmental Satellites had failed. The 
agency is currently depending on the last working sensor on the oldest 
(GOES-10) satellite to track solar flares and working to obtain 
equivalent data from other missions.
    Chairman Lampson. This hearing will come to order. Good 
morning, everyone. We once again meet to keep abreast of the 
National Polar-Orbiting Operational Environmental Satellite 
System. When launched, NPOESS will be the primary source of 
information the National Weather Service uses to make its long-
range forecasts. Our military services will need NPOESS data to 
plan operations around the globe. This Committee has given 
sustained attention to this program because it is so very vital 
to our daily lives.
    NPOESS is having a difficult birth. The Government 
Accountability Office once more has to report that instability 
continues to beset the program. Last year GAO recommended that 
the program managers needed to complete the basic planning and 
management documents to assure that everyone understands the 
schedule, the objectives, and the resources. It is a year 
later, and GAO still has to recommend getting this basic task 
done. The Under Secretary for Defense for Acquisitions, 
Logistics and Technology, Mr. John Young, has ordered these to 
be finished by the end of August or funding will be cut off. 
Admiral Lautenbacher will assure us most strenuously that this 
time the paperwork will get finished, and I want to discuss 
that with him later.
    I would like to have had Mr. Young here to talk about his 
memorandum and his views on the management of the NPOESS 
program. Unfortunately, it wasn't until last week that we knew 
it had been issued. I hope Admiral Lautenbacher will explain 
why a memo he received in May did not reach us until June, and 
then from GAO. This committee, under both Democratic and 
Republican leadership, has done its utmost to assist NOAA in 
keeping this program on track. The Committee has always 
expected to be kept fully and completely informed and I expect 
Admiral Lautenbacher to assure us that will always be the case.
    Costs for this program are still not under control. Despite 
assurances that the program was adhering to its $12.5 billion 
life cycle cost estimate, GAO believes that we can expect 
another increase of $1.1 billion. Some $300 million represents 
the cost of recovery from the problems with the VIIRS\1\ and 
CrIS\2\ sensors last year.
---------------------------------------------------------------------------
    \1\ Visible Infrared Imaging Radiometer Suite
    \2\ Cross-Track Infrared Sounder
---------------------------------------------------------------------------
    Technical problems are still not resolved. A week ago today 
NOAA informed us that some of the screw heads on the VIIRS 
instrument were found to be sheared off as it was being 
prepared for testing. Early indications are that the posts into 
which the screws are driven were improperly made. In the worst 
case, the VIIRS unit will have to be completely disassembled to 
replace all of these so-called ``jack posts.'' Doing so will 
mean yet another delay in launching the NPP precursor mission. 
While NOAA hopes that this won't be required, the history of 
VIIRS argues that the worst case is only half as bad as what 
will finally come to pass.
    This is not the situation we hoped to be in at this point 
in time. The Executive Committee must expeditiously make 
decisions and act to resolve these problems. The risk of a data 
gap is growing along with the cost of this program. This 
Committee wants to know how these problems are going to be 
resolved and when we can expect some good news.
    I welcome back our witnesses, Mr. Powner and Admiral 
Lautenbacher, for whom this is familiar ground, and recognize 
Mr. Inglis for his opening statement.
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    Good morning. We once again meet to keep abreast of the National 
Polar-Orbiting Operational Environmental Satellite System. When 
launched, NPOESS will be the primary source of information the National 
Weather Service uses to make its long-range forecasts. Our military 
services will need NPOESS data to plan operations around the globe. 
This committee has given sustained attention to this program because it 
is so vital to our daily lives.
    NPOESS is having a difficult birth. The Government Accountability 
Office once more has to report that instability continues to beset the 
program. Last year GAO recommended that the program managers needed to 
complete the basic planning and management documents to assure that 
everyone understands the schedule, objectives and resources. It's a 
year later and GAO still has to recommend getting this basic task done. 
The Under Secretary for Defense for Acquisitions, Logistics and 
Technology, Mr. John Young, has ordered these to be finished by the end 
of August or funding will be cut off. Admiral Lautenbacher will assure 
us most strenuously that this time the paperwork will get finished. I 
want to discuss that with him later.
    I would like to have had Mr. Young here to talk about his 
memorandum and his views on the management of the NPOESS program. 
Unfortunately, it wasn't until last week that we knew it had been 
issued. I hope Admiral Lautenbacher will explain why a memo he received 
in May did not reach us until June, and then from GAO. This committee, 
under both Democratic and Republican leadership, has done its utmost to 
assist NOAA in keeping this program on track. The Committee has always 
expected to be kept fully and completely informed and I expect Admiral 
Lautenbacher to assure us that will always be the case.
    Costs for this program are still not under control. Despite 
assurances that the program was adhering to its $12.5 billion life 
cycle cost estimate, GAO believes that we can expect another increase 
of $1.1 billion. Some $300 million represents the cost of recovery from 
the problems with the VIIRS and CrIS sensors last year.
    Technical problems are still not resolved. A week ago today NOAA 
informed us that some of the screw heads on the VIIRS instrument were 
found to be sheared off as it was being prepared for testing. Early 
indications are that the posts into which the screws are driven were 
improperly made. In the worst case, the VIIRS unit will have to be 
completely disassembled to replace all of these so-called ``jack 
posts.'' Doing so will mean yet another delay in launching the NPP 
precursor mission. While NOAA hopes that this won't be required, the 
history of VIIRS argues that the worst case is only half as bad as what 
will finally come to pass.
    This is not the situation we hoped to be in at this point in time. 
I have grave concerns about this program. The Executive Committee must 
expeditiously make decisions and act to resolve these problems. The 
risk of a data gap is growing along with the cost of this program. This 
committee wants to know how these problems are going to be resolved and 
when we can expect some good news.
    I welcome back our witnesses, Mr. Powner and Admiral Lautenbacher, 
for whom this is familiar ground, and recognize Mr. Inglis for his 
opening statement.

    Mr. Inglis. Thank you, Mr. Chairman. Thank you for holding 
this hearing about the National Polar-Orbiting Operational 
Environmental Satellite System, NPOESS. This hearing continues 
close oversight of this vital weather satellite program, 
oversight that started under Republican leadership of this 
committee. Last June we met to discuss a GAO report's finding 
on the progress of the NPOESS program. Mr. Powner, you were 
here to present that report one year ago, and now you are back 
again with additional findings. This feels almost like 
satellite club reunion, I suppose. But in June of 2007, it 
seemed that the program was on track under the new plan. 
However, given the significant changes that were being made to 
the capability of the system, I and many of my colleagues 
stressed that close oversight had to continue or the 
repercussions would be costly. And we are here again, and again 
we are stressing the importance of oversight and rightly so I 
think. Things are less at ease than they were last year. Costly 
is a good word to describe the progress of the program over the 
past 12 months. $12.5 billion was NPOESS's price tag in June 
2007. Today it is $13.6 billion, and there is another increase 
looming on the horizon.
    The Department of Defense has already announced that if 
major management documents are not finalized by September, DOD 
will remove funding. If that happens, the Department of 
Commerce would be forced to follow suit and remove funding as 
well. This loss of funding would mean a significant setback in 
the investment and progress of the NPOESS program.
    It is said that NPOESS is the most complex environmental 
satellite system ever deployed, and given what we have gone 
through in this committee alone in the past few years, I 
believe it. I also believe that all of us involved--Congress, 
NOAA, the Air Force, and NASA--have a vested interest in making 
sure that the system succeeds despite the complexities. NPOESS 
holds the complexities for advanced climate and weather sensing 
which, even in light of the cost, can mean great benefits for 
our country and for the world. NPOESS today is a $13.6 billion 
program. That is a lot of taxpayer money. We need weather 
satellites that are launched on time and to provide data that 
informs everything from decisions about our military troop 
operations to forecasting the path of hurricanes.
    Thank you again, Mr. Chairman. I look forward to hearing 
from our witnesses.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good morning. Thank you, Chairman Lampson, for holding this hearing 
about the National Polar-orbiting Operational Environmental Satellite 
System, NPOESS. This hearing continues close oversight of this vital 
weather satellite program, oversight that started under Republican 
leadership of this committee.
    Last June, we met to discuss a GAO report's findings on the 
progress of the NPOESS program. Mr. Powner, you were here to present 
that report one year ago, and now you're back again with additional 
findings--this feels almost like a Satellite club reunion!
    In June 2007, it seemed that the program was on track under the new 
plan. However, given that significant changes were being made to the 
capability of the system, I, and many of my colleagues, stressed that 
close oversight had to continue, or the repercussions would be costly.
    And we're here again, and again we're stressing the importance of 
oversight. And rightly so, I think. Things are less ``at ease'' then 
they were last year. ``Costly'' is a good word to use to describe the 
progress of the program over the past 12 months. $12.5 billion was the 
NPOESS price tag in June 2007. Today, it's $13.6 billion. And there's 
another increase looming on the horizon. The Department of Defense has 
recently announced that if major management documents are not finalized 
by September, DOD will remove funding. If that happens, the Department 
of Commerce would be forced to follow suit and remove funding as well. 
This loss of funding would mean a significant setback in the investment 
and progress of the NPOESS program.
    It is said NPOESS is ``the most complex environmental satellite 
system ever developed,'' and given what we've gone through in this 
committee alone in the past few years, I believe it. I also believe 
that all of us involved, Congress, NOAA, the Air Force, and NASA have a 
vested interest in making sure that the system succeeds, despite the 
complexities. NPOESS holds the capability for advanced climate and 
weather sensing, which, even in light of the cost, can mean great 
benefits for our country and the world.
    NPOESS today is a $13.6 billion program. That is a lot of taxpayer 
money. We need weather satellites that are launched on time and that 
provide data that informs everything from decisions about our military 
troop operations to forecasting the path of hurricanes.
    Thank you again, Mr. Chairman, and I look forward to hearing from 
our witnesses.

    Chairman Lampson. Thank you, Mr. Inglis. I ask unanimous 
consent that all additional opening statements submitted by 
Committee Members be included in the record. Without objection, 
so ordered.
    [The prepared statement of Mr. Costello follows:
         Prepared Statement of Representative Jerry F. Costello
    Thank you, Mr. Chairman, for holding this hearing today, as this is 
an important opportunity to follow-up on our hearing from last year and 
to learn more about the National Polar-Orbiting Operational 
Environmental Satellite System (NPOESS).
    I look forward to hearing a status update from Admiral Lautenbacher 
and Mr. Powner, as the program is fundamental to the National Oceanic 
and Atmospheric Administration's (NOAA) weather missions.
    As Chairman of the Transportation Subcommittee on Aviation, I am 
particularly aware of the contribution that NOAA makes to the safety of 
our environment, particularly to aviation travel. Although questions 
have been raised about the stability of the NPOESS, it is my hope that 
this hearing will help guide the program in the right direction and 
answer any lingering administrative questions.
    Thank you, Mr. Chairman, and I yield back the remainder of my time.

    Chairman Lampson. It is my pleasure to introduce our 
witnesses this morning. Mr. David Powner is the Director for 
Information Technology Management Issues at the Government 
Accountability Office. Vice Admiral Conrad Lautenbacher is the 
Under Secretary for Oceans and Atmosphere and Administrator of 
the National Oceanic and Atmospheric Administration. And I 
might add at this point, yesterday I was at the Partnership for 
Public Service and witnessed a couple of your folks receiving 
some very nice public service awards. One of them happened to 
have been a classmate of mine from college, Dr. Eddie Beaumont, 
and it was a real pleasure seeing him but more importantly, 
knowing what he has accomplished for our country. Very 
impressed.
    You will each have five minutes for your spoken testimony. 
Your written testimony will be included in the record for the 
hearing. When you all complete your testimony, we will begin 
with questions. Each Member will have five minutes to question 
the panel, and Mr. Powner, you may begin.

    STATEMENT OF MR. DAVID A. POWNER, DIRECTOR, INFORMATION 
 TECHNOLOGY MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairman Lampson, Ranking Member Inglis, and 
Members of the Subcommittee, we appreciate the opportunity to 
testify on our latest NPOESS report being released today.
    This morning I will briefly address three areas: first, the 
status of NPOESS's restructuring which is taking too long to 
complete and now raises serious questions about DOD's 
commitment to and funding of the program; second, key risk 
areas and their potential cost implications which will at least 
add $1 billion to NPOESS's life cycle costs; and third, the 
need for long-term strategy to restore climate and space 
sensors that were removed from the NPOESS program as part of 
the June 2006 restructuring.
    Before discussing these three points, I would like to 
highlight NPOESS's progress in several areas. The program has 
redefined deliverables, cost, and schedules and renegotiated 
the contract, made significant progress in completing 
development and testing activities associated with spacecraft 
sensors and ground systems, and it continues to improve its 
management of the contractor and program risks.
    Last May when we testified before you, Mr. Chairman, we 
raised serious concerns about interagency coordination because 
key acquisition documents were not signed by their September 
2006 due date following the Nunn-McCurdy restructuring. We 
highlighted at that time the urgency in signing these documents 
to ensure interagency agreements. Although some documents have 
been finalized, agency executives have yet to finalize several 
key documents needed to effectively manage this tri-agency 
program, including the acquisition program baseline and a 
critical plan for how the European satellite data will be used 
with NPOESS. Now DOD has stated it will not release fiscal year 
2009 funds to the program if these documents are not finalized 
by the end of August. On the surface, DOD's threat appears to 
be a good thing, given that the new August deadline is now 
nearly two years later than the original deadline. However, DOD 
is equally at fault here since most of the documents in 
question are currently at DOD awaiting approval.
    Mr. Chairman, such delays, threats, and lack of leadership 
and cooperation are unacceptable. It is time for the NPOESS 
EXCOM\3\ members to step up, get these documents finalized to 
ensure key interagency agreements and to not risk any funding 
implications. Regarding key risks and potential cost 
implications, key risk areas that concern us the most are the 
technical sensor risks, changes to the security approach, and 
the uncertainty of operations and support costs. Poor 
workmanship and delays caused an eight-month slip in the 
delivery of VIIRS which caused a corresponding eight-month slip 
in the launch of NPOESS's demonstration satellite, NPP.
---------------------------------------------------------------------------
    \3\ Executive Committee
---------------------------------------------------------------------------
    The CrIS sensor has also experienced cost overruns and 
scheduling delays, but VIIRS continues to be the program's 
largest question mark. It is complex, continues to experience 
problems in testing, and is clearly the most concerning aspect 
of this acquisition. The program estimates that it will cost at 
least an additional $300 million to fix these known technical 
sensor issues.
    Turning to security, the program is considering raising the 
level of security measures associated with NPOESS's ground 
stations. The program has been looking at these options but has 
yet to finalize, release its findings, or agree to a final 
approach. Building in security late in the development cycle 
will be costly regarding the operations and support costs. 
Following the Nunn-McCurdy decision, the operations and support 
costs were estimated to be about a billion dollars. Now, both 
the program office and DOD's cost analysis group are refining 
the estimate which we expect to be at least $800 million 
higher. Therefore, between the technical sensor issues, 
increasing security controls, and having a more realistic 
operations and support estimate, we expect the $12.5 billion 
life cycle cost estimate to increase at least $1 billion but 
would not be surprised if the revised life cycle cost estimate 
approaches $14 billion.
    Finally, Mr. Chairman, some progress has been made in 
restoring selected climate and space sensors that were removed 
to reduce risk and cost during the Nunn-McCurdy decision. 
Specifically, two sensors are being placed on NPP and one will 
now go on the first NPOESS satellite known as C-1. These will 
both help with short-term needs. In addition, options for 
restoring these sensors have been studied. Now decisions need 
to be made and plans need to be developed for longer-term 
continuity of climate and space sensors. The Office of Science 
and Technology Policy has been working with the three agencies, 
but there is no firm commitment when such a plan would be 
developed. Accordingly, we recommended that a plan be developed 
to ensure that there are no gaps in critical space, 
environmental, and climate observations.
    In summary, Mr. Chairman, the NPOESS program needs to 
finalize the acquisition documents, revise its life cycle cost 
estimate given the expected increases associated with sensors, 
security, and operations and support; and on a broader scale, 
our nation is in need of a plan to address long-term continuity 
of climate and space observations.
    This concludes my statement. Thank you for your leadership 
and oversight of this critical program.
    [The prepared statement of Mr. Powner follows:]
                 Prepared Statement of David A. Powner

                        Environmental Satellites

Polar-orbiting Satellite Acquisition Faces Delays; Decisions Needed on 
           Whether and How to Ensure Climate Data Continuity

Mr. Chairman and Members of the Subcommittee:

    We appreciate the opportunity to participate in today's hearing to 
discuss our work on the $12.5 billion National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) program. NPOESS is 
expected to be a state-of-the-art, environment-monitoring satellite 
system that will replace two existing polar-orbiting environmental 
satellite systems. Polar-orbiting satellites provide data and imagery 
that are used by weather forecasters, climatologists, and the military 
to map and monitor changes in weather, climate, the oceans, and the 
environment. The NPOESS program is considered critical to the United 
States' ability to maintain the continuity of data required for weather 
forecasting (including severe weather events such as hurricanes) and 
global climate monitoring through the year 2026.
    Three agencies share responsibility for the NPOESS program: the 
Department of Commerce's National Oceanic and Atmospheric 
Administration (NOAA), the Department of Defense (DOD)/United States 
Air Force, and the National Aeronautics and Space Administration 
(NASA). To manage the NPOESS program, these agencies established a tri-
agency integrated program office. In recent years, the program has 
experienced escalating costs, schedule delays, and technical 
difficulties, which led to a June 2006 decision to restructure it. This 
decision decreased the complexity of the program by reducing the number 
of satellites and sensors, increased the estimated cost of the program 
to $12.5 billion, and delayed the launches of the first two satellites 
by three and five years, respectively.
    As requested, this statement summarizes our report being released 
today that (1) evaluates the NPOESS program office's progress in 
restructuring the acquisition, (2) assesses the status of key program 
components and risks, (3) and assesses NASA's, NOAA's, and DOD's plans 
for obtaining the environmental data originally planned to be collected 
by NPOESS sensors, but then eliminated by the restructuring.\1\
---------------------------------------------------------------------------
    \1\ GAO, Environmental Satellites: Polar-orbiting Satellite 
Acquisition Faces Delay; Decisions Needed on Whether and How to Ensure 
Climate Data Continuity, GAO-08-518 (Washington, D.C.: May 16, 2008).
---------------------------------------------------------------------------
    In preparing this testimony, we relied on our work supporting the 
accompanying report. That report contains a detailed overview of our 
scope and methodology. In addition, we updated factual information on 
sensors and due dates as warranted. All the work on which this 
testimony is based was performed in accordance with generally accepted 
government auditing standards.

Results in Brief

    The NPOESS program office has completed most of the major 
activities associated with restructuring the acquisition, but key 
activities remain to be completed. In the past year, the program 
redefined the program's deliverables, costs, and schedules, and 
renegotiated the NPOESS contract. However, agency executives have not 
yet finalized selected acquisition documents, including the tri-agency 
memorandum of agreement and the acquisition program baseline. In April 
2007, we reported that key acquisition documents were already over six 
months late and recommended that agency officials complete them 
immediately.\2\ Agency officials subsequently extended the due dates of 
the documents. Moreover, although DOD has had a role in delaying their 
completion, the Department has stated it would not release fiscal year 
2009 funds to the NPOESS program if key acquisition documents are not 
completed by August 2008. Without executive approval of the memorandum 
of agreement and other key documents, the program lacks the underlying 
commitment needed to effectively manage a tri-agency program. In 
addition, given DOD's recent instructions, any further delays in 
completing these documents could affect the program's funding and 
schedule.
---------------------------------------------------------------------------
    \2\ GAO, Polar-orbiting Operational Environmental Satellites: 
Restructuring is Under Way, but Technical Challenges and Risks Remain, 
GAO-07-498 (Washington, D.C.: April 27, 2007).
---------------------------------------------------------------------------
    In the past year, the NPOESS program has made progress in 
completing development and testing activities associated with the 
spacecraft, sensors, and ground systems. However, key milestones have 
been delayed and multiple risks remain. Specifically, poor workmanship 
and testing delays caused an eight-month slip in the delivery of a 
complex imaging sensor called the Visible/infrared imager radiometer 
suite. This late delivery caused a corresponding eight-month delay in 
the expected launch date of the NPOESS Preparatory Project 
demonstration satellite, moving it from late September 2009 to early 
June 2010. Any delay in this launch date shortens the time available 
for identifying lessons learned from the demonstration satellite while 
it is in orbit and incorporating these lessons in the development of 
the first NPOESS satellite. Such delays could also lead to gaps in 
weather and climate data continuity if existing satellites begin to 
degrade or fail. Moving forward, risks remain in completing the testing 
of key sensors and integrating them on the spacecraft, resolving 
interagency disagreements about the appropriate level of system 
security, and revising outdated operations and support cost estimates--
which program officials say could increase the life cycle cost by about 
$1 billion. The program office is aware of these risks and is working 
to mitigate them, but these issues could affect the program's overall 
schedule and cost.
    When the NPOESS restructuring agreement removed four climate and 
space environment sensors from the program and degraded four others, it 
led NASA, NOAA, and DOD to reassess their priorities and options for 
obtaining climate and space environment data. Since the June 2006 
restructuring decision, the three agencies have taken preliminary steps 
to restore the capabilities of selected climate and space weather 
sensors that were removed from the NPOESS program by prioritizing the 
sensors, assessing options for restoring them, and making decisions to 
mitigate near-term data continuity needs by restoring two sensors to 
the demonstration satellite and one sensor to the first NPOESS 
satellite. However, the agencies have not yet developed plans on 
whether and how to ensure climate and space weather data on a long-term 
basis as no plans have been made for sensors or satellites after the 
first satellite of the program. Until such a plan is developed, the 
agencies may lose their windows of opportunity for selecting cost-
effective options or they may resort to an ad hoc approach to restoring 
these sensors. Almost two years have passed since key sensors were 
removed from the NPOESS program; further delays in establishing a plan 
could result in gaps in the continuity of climate and space data.
    In our report, we made recommendations to all three agencies to 
establish plans on whether and how to restore the climate and space 
sensors removed from the NPOESS program by June 2009, in cases where 
the sensors are warranted and justified. In addition, we also 
reemphasized a recommendation made in our prior report\3\ that the 
appropriate NASA, NOAA, and DOD executives immediately finalize key 
acquisition documents. All three agencies concurred with these 
recommendations.
---------------------------------------------------------------------------
    \3\ GAO-07-498

Background

    Since the 1960s, the United States has operated two separate 
operational polar-orbiting meteorological satellite systems: the Polar-
orbiting Operational Environmental Satellite (POES) series--managed by 
NOAA--and the Defense Meteorological Satellite Program (DMSP)--managed 
by the Air Force. These satellites obtain environmental data that are 
processed to provide graphical weather images and specialized weather 
products--including both terrestrial and space weather. These satellite 
data are also the predominant input to numerical weather prediction 
models, which are a primary tool for forecasting weather three or more 
days in advance--including forecasting the path and intensity of 
hurricanes. The weather products and models are used to predict the 
potential impact of severe weather so that communities and emergency 
managers can help prevent and mitigate their effects. Polar satellites 
also provide data used to monitor environmental phenomena, such as 
ozone depletion and drought conditions, as well as data sets that are 
used by researchers for a variety of studies such as climate 
monitoring.

NPOESS Overview

    With the expectation that combining the POES and DMSP programs 
would reduce duplication and result in sizable cost savings, a May 1994 
Presidential Decision Directive required NOAA and DOD to converge the 
two satellite programs into a single satellite program capable of 
satisfying both civilian and military requirements.\4\ The converged 
program, NPOESS, is considered critical to the United States' ability 
to maintain the continuity of data required for weather forecasting and 
global climate monitoring through the year 2026. To manage this 
program, DOD, NOAA, and NASA formed the tri-agency Integrated Program 
Office, located within NOAA.
---------------------------------------------------------------------------
    \4\ Presidential Decision Directive NSTC-2, May 5, 1994.
---------------------------------------------------------------------------
    Within the program office, each agency has the lead on certain 
activities: NOAA has overall program management responsibility for the 
converged system and for satellite operations; DOD has the lead on the 
acquisition; and NASA has primary responsibility for facilitating the 
development and incorporation of new technologies into the converged 
system. NOAA and DOD share the costs of funding NPOESS, while NASA 
funds specific technology projects and studies. The NPOESS program 
office is overseen by an Executive Committee, which is made up of the 
Administrators of NOAA and NASA and the Under Secretary of the Air 
Force.
    NPOESS is a major system acquisition that was originally estimated 
to cost about $6.5 billion over the 24-year life of the program from 
its inception in 1995 through 2018. The program is to provide satellite 
development, satellite launch and operation, and ground-based satellite 
data processing. These deliverables are grouped into four main 
categories: (1) the space segment, which includes the satellites and 
sensors; (2) the integrated data processing segment, which is the 
system for transforming raw data into environmental data records (EDR) 
and is to be located at four data processing centers; (3) the command, 
control, and communications segment, which includes the equipment and 
services needed to support satellite operations; and (4) the launch 
segment, which includes launch vehicle services.
    When the NPOESS engineering, manufacturing, and development 
contract was awarded in August 2002, the cost estimate was adjusted to 
$7 billion. Acquisition plans called for the procurement and launch of 
six satellites over the life of the program, as well as the integration 
of 13 instruments--consisting of 10 environmental sensors and three 
subsystems. Together, the sensors were to receive and transmit data on 
atmospheric, cloud cover, environmental, climatic, oceanographic, and 
solar-geophysical observations. The subsystems were to support non-
environmental search and rescue efforts, sensor survivability, and 
environmental data collection activities. The program office considered 
four of the sensors to be critical because they provide data for key 
weather products; these sensors are in bold in Table 1, which describes 
each of the expected NPOESS instruments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition, a demonstration satellite, called the NPOESS 
Preparatory Project (NPP), was planned to be launched several years 
before the first NPOESS satellite in order to reduce the risk 
associated with launching new sensor technologies and to ensure 
continuity of climate data with NASA's Earth Observing System 
satellites. NPP was to host three of the four critical NPOESS sensors, 
as well as one other noncritical sensor and to provide the program 
office and the processing centers an early opportunity to work with the 
sensors, ground control, and data processing systems.\5\
---------------------------------------------------------------------------
    \5\ The four sensors are the Visible/infrared imager radiometer 
suite, the Cross-track infrared sounder, the Advanced technology 
microwave sounder, and the Ozone mapper/profiler suite.
---------------------------------------------------------------------------
    When the NPOESS development contract was awarded, the schedule for 
launching the satellites was driven by a requirement that the 
satellites be available to back up the final POES and DMSP satellites 
should anything go wrong during the planned launches of these 
satellites. Early program milestones included (1) launching NPP by May 
2006, (2) having the first NPOESS satellite available to back up the 
final POES satellite launch in March 2008, and (3) having the second 
NPOESS satellite available to back up the final DMSP satellite launch 
in October 2009. If the NPOESS satellites were not needed to back up 
the final predecessor satellites, their anticipated launch dates would 
have been April 2009 and June 2011, respectively.

NPOESS Experienced Cost Increases, Schedule Delays, and Technical 
                    Problems That Led to Decision to Restructure the 
                    NPOESS Program

    Over several years, we reported that NPOESS had experienced 
continued cost increases, schedule delays, and serious technical 
problems.\6\ By November 2005, we estimated that the cost of the 
program had grown from $7 billion to over $10 billion. In addition, the 
program was experiencing major technical problems with the VIIRS sensor 
and expected to delay the launch date of the first satellite by almost 
two years. These issues ultimately required difficult decisions to be 
made about the program's direction and capabilities. The Nunn-McCurdy 
law requires DOD to take specific actions when a major defense 
acquisition program cost growth exceeds certain thresholds.\7\ The law 
requires the Secretary of Defense to notify Congress when a major 
defense acquisition is expected to overrun its current baseline by 15 
percent or more and to certify the current program to Congress when it 
is expected to overrun its baseline by 25 percent or more.\8\ In 
November 2005, NPOESS exceeded the 25 percent threshold, and DOD was 
required to certify the program. Certifying a program entails providing 
a determination that (1) the program is essential to national security, 
(2) there are no alternatives to the program that will provide equal or 
greater military capability at less cost, (3) the new estimates of the 
program's cost are reasonable, and (4) the management structure for the 
program is adequate to manage and control costs. DOD established tri-
agency teams--made up of DOD, NOAA, and NASA experts--to work on each 
of the four elements of the certification process.
---------------------------------------------------------------------------
    \6\ GAO, Polar-orbiting Operational Environmental Satellites: Cost 
Increases Trigger Review and Place Program's Direction on Hold, GAO-06-
573T (Washington, D.C.: Mar. 30, 2006); GAO, Polar-orbiting Operational 
Environmental Satellites: Technical Problems, Cost Increases, and 
Schedule Delays Trigger Need for Difficult Trade-off Decisions, GAO-06-
249T (Washington, D.C.: Nov. 16, 2005); GAO, Polar-orbiting 
Environmental Satellites: Information on Program Cost and Schedule 
Changes, GAO-04-1054 (Washington, D.C.: Sept. 30, 2004); GAO, Polar-
orbiting Environmental Satellites: Project Risks Could Affect Weather 
Data Needed by Civilian and Military Users, GAO-03-987T (Washington, 
D.C.: July 15, 2003); and GAO, Polar-orbiting Environmental Satellites: 
Status, Plans, and Future Data Management Challenges, GAO-02-684T 
(Washington, D.C.: July 24, 2002).
    \7\ 10 U.S.C.  2433 is commonly referred to as Nunn-McCurdy.
    \8\ 10 U.S.C.  2433 has recently been amended by Pub. L. No. 109-
163,  802 (Jan. 6, 2006) and Pub. L. No. 109-364,  213(a) (Oct. 17, 
2006). The law now also includes cost growth thresholds from the 
program's original baseline.
---------------------------------------------------------------------------
    In June 2006, DOD (with the agreement of both of its partner 
agencies) certified a restructured NPOESS program, estimated to cost 
$12.5 billion through 2026.\9\ This decision approved a cost increase 
of $4 billion over the prior approved baseline cost and delayed the 
launch of NPP and the first two satellites by roughly three to five 
years. The new program also entailed reducing the number of satellites 
to be produced and launched from six to four, and reducing the number 
of instruments on the satellites from 13 to nine--consisting of seven 
environmental sensors and two subsystems. It also entailed using NPOESS 
satellites in the early morning and afternoon orbits and relying on 
European satellites for mid-morning orbit data.\10\ Table 2 summarizes 
the major program changes made under the Nunn-McCurdy certification 
decision.
---------------------------------------------------------------------------
    \9\ DOD estimated that the acquisition portion of the certified 
program would cost $11.5 billion. The acquisition portion includes 
satellite development, production, and launch, but not operations and 
support costs after launch. When combined with an estimated $1 billion 
for operations and support after launch, this brings the program life 
cycle cost to $12.5 billion.
    \10\ The European Organization for the Exploitation of 
Meteorological Satellites' MetOp program is a series of three polar-
orbiting satellites dedicated to operational meteorology. MetOp 
satellites are planned to be launched sequentially over 14 years. The 
first of these satellites was launched in 2006 and is currently 
operational.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Nunn-McCurdy certification decision established new milestones 
for the delivery of key program elements, including launching NPP by 
January 2010, launching the first NPOESS satellite by January 2013, and 
launching the second NPOESS satellite by January 2016. These revised 
milestones deviated from prior plans to have the first NPOESS satellite 
available to back up the final POES satellite should anything go wrong 
during that launch.
    Delaying the launch of the first NPOESS satellite meant that if the 
final POES satellite fails on launch, satellite data users would need 
to rely on the existing constellation of environmental satellites until 
NPP data becomes available--almost two years later. Although NPP was 
not intended to be an operational asset, NASA agreed to move NPP to a 
different orbit so that its data would be available in the event of a 
premature failure of the final POES satellite. If the health of the 
existing constellation of satellites diminishes--or if NPP data is not 
available, timely, and reliable--there could be a gap in environmental 
satellite data.
    In order to reduce program complexity, the Nunn-McCurdy 
certification decision decreased the number of NPOESS sensors from 13 
to nine and reduced the functionality of four sensors. Specifically, of 
the 13 original sensors, five sensors remain unchanged (but two are on 
a reduced number of satellites), three were replaced with older or less 
capable sensors, one was modified to provide less functionality, and 
four were canceled. The certification decision also made allowances for 
the reintegration of the canceled sensors. Specifically, the program 
was directed to build each NPOESS spacecraft with enough room and power 
to accommodate the sensors that were removed from the program and to 
fund the integration and testing of any sensors that are later 
restored. Agency sponsors external to the program would be responsible 
for justifying and funding the sensor's development, while the NPOESS 
Executive Committee would have the final decision on whether to include 
the sensor on a specific satellite. Table 3 identifies the changes to 
the NPOESS instruments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The changes in NPOESS sensors affected the number and quality of 
the resulting weather and environmental products, called environmental 
data records (EDR). In selecting sensors for the restructured program 
during the Nunn-McCurdy process, decision-makers placed the highest 
priority on continuing current operational weather capabilities and a 
lower priority on obtaining selected environmental and climate 
measuring capabilities. As a result, the revised NPOESS system has 
significantly less capability for providing global climate measures 
than was originally planned. Specifically, the number of EDRs was 
decreased from 55 to 39, of which six are of a reduced quality. The 39 
EDRs that remain include cloud base height, land surface temperature, 
precipitation type and rate, and sea surface winds. The 16 EDRs that 
were removed include cloud particle size and distribution, sea surface 
height, net solar radiation at the top of the atmosphere, and products 
to depict the electric fields in the space environment. The six EDRs 
that are of a reduced quality include ozone profile, soil moisture, and 
multiple products depicting energy in the space environment.

Major Restructuring Activities Have Been Completed, but Key Remaining 
                    Activities Could Affect Funding and Schedule

    The program office has completed major activities associated with 
restructuring NPOESS, but key supporting activities remain--including 
obtaining approval of key acquisition documents--and delays in 
completing these activities could affect the program's funding and 
schedule. Restructuring a major acquisition program like NPOESS is a 
process that involves reassessing and redefining the program's 
deliverables, costs, and schedules, and renegotiating the contract. The 
restructuring process also involves revising important acquisition 
documents such as the tri-agency memorandum of agreement, the 
acquisition strategy, the system engineering plan, the integrated 
master schedule defining what needs to happen by when, and the 
acquisition program baseline. In April 2007, we reported that the key 
acquisition documents were over six months late from their original 
September 2006 due date, and we recommended that the appropriate 
executives immediately finalize them.\11\ This recommendation has not 
yet been addressed and agency officials subsequently extended the due 
dates of the documents to September 2007.
---------------------------------------------------------------------------
    \11\ GAO-07-498.
---------------------------------------------------------------------------
    During the past year, the program redefined the program's 
deliverables, costs, and schedules, and renegotiated the NPOESS 
contract. To do so, the program developed a new program plan and 
conducted an integrated baseline review of the entire program, which 
validated that the new deliverables, costs, and schedules were 
feasible. It also completed key acquisition documents including the 
system engineering plan and the integrated master schedule. The program 
and the prime contractor signed a modified contract in July 2007.
    However, key activities remain to be completed, including obtaining 
executive approval of key acquisition documents. Specifically, even 
though agency officials were expected to approve key acquisition 
documents by September 2007, the appropriate executives have not yet 
signed off on documents including the tri-agency memorandum of 
agreement or the acquisition strategy report. They have also not signed 
off on the acquisition program baseline, the fee management plan, the 
test and evaluation master plan, and the two-orbit program plan (a plan 
for how to use European satellite data with NPOESS).
    Program officials stated that the program has been able to 
renegotiate the contract and to proceed in developing sensors and 
systems without these documents being signed because the documents have 
widespread acceptance within the three agencies. They reported that the 
delays are largely due to the complexity of obtaining approval from 
three agencies. For example, program officials reported that an 
organization within DOD suggested minor changes to the tri-agency 
memorandum of agreement after months of coordination and after it had 
already been signed by both the Secretary of Commerce and the 
Administrator of NASA. Further, after this issue was resolved, a senior 
official at DOD requested another change to the document. The program 
office has now made the recommended changes and is re-initiating the 
coordination process.
    More recently, in April 2008, DOD moved the due dates for all of 
the acquisition documents other than the memorandum of agreement and 
fee management plan from September 2007 to August 31, 2008. (See 
Appendix I for the history of the due dates and status of each 
document). In addition, even though DOD has had a role in delaying 
these documents, the Department has stated it would not release fiscal 
year 2009 funds to the program if these acquisition documents are not 
completed by the new due date. Without executive approval of key 
acquisition documents, the program lacks the underlying commitment 
necessary to effectively manage a tri-agency program. In addition, 
given DOD's newest instructions, any further delays in completing these 
acquisition documents could affect the program's funding and schedule.

Program Has Made Progress, but Key Milestones Have Been Delayed and 
                    Risks Remain

    Over the last year, the NPOESS program has made progress by 
completing planned development and testing activities on its ground and 
space segments, but key milestones for delivering the VIIRS sensor and 
launching NPP have been delayed by about eight months. Moving forward, 
risks remain in completing the testing of key sensors and integrating 
them on the NPP spacecraft, in resolving interagency disagreements on 
the appropriate level of system security, and in revising estimated 
costs for satellite operations and support. The program office is aware 
of these risks and is working to mitigate them, but continued problems 
could affect the program's overall schedule and cost. Given the tight 
time frames for completing key sensors, integrating them on the NPP 
spacecraft, and getting the ground-based data processing system 
developed, tested, and deployed, it is important for the NPOESS 
Integrated Program Office, the Program Executive Office, and the 
Executive Committee to continue to provide close oversight of 
milestones and risks.

Ground Segment--Progress Made but Important Work Remains to Be Done

    Development of the ground segment--which includes the interface 
data processing system, the ground stations that are to receive 
satellite data, and the ground-based command, control, and 
communications system--is under way and on track. For example, the 
Interface Data Processing System has been installed at one of the two 
locations that are to receive NPP data, and the command, control, and 
communications system passed acceptance testing for use with NPP. 
However, important work in developing the algorithms that translate 
satellite data into weather products within the integrated data 
processing segment remains to be completed. Table 4 describes each of 
the components of the ground segment and identifies the program-
provided risk level and status of each.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Space Segment--Progress Made, but One Sensor Was Delayed and Sensors 
                    Continue to Face Risks

    Over the past year, the program made progress on the development of 
the space segment, which includes the sensors and the spacecraft. Five 
sensors are of critical importance because they are to be launched on 
the NPP satellite.\12\ Initiating work on another sensor, the Microwave 
Imager Sounder, is also important because this new sensor--which is to 
replace the canceled Conical-scanned microwave imager/sounder sensor--
will need to be developed in time for the second NPOESS satellite 
launch. Among other activities, the program has successfully completed 
vibration testing of the flight unit of the Cross-track infrared 
sounder (CrIS), a major pre-environmental testing review for the VIIRS 
instrument, integration and risk reduction testing of the flight unit 
of the Ozone mapper/profiler suite, and thermal testing of the NPP 
spacecraft with three sensors on board.\13\ In addition, the program 
made decisions on how to proceed with the Microwave imager sounder and 
recently awarded a contract to a government laboratory for its 
development.
---------------------------------------------------------------------------
    \12\ NPP is to include the Visible/infrared imager radiometer 
suite, Cross-track infrared sounder, Advanced technology microwave 
sounder, Ozone mapper/profiler suite (nadir and limb), and the Clouds 
and the Earth's radiant energy system.
    \13\ The three sensors included the flight unit for the Advanced 
technology microwave sounder and engineering design units for the 
Visible/infrared imager radiometer suite and the Cross-track infrared 
sounder.
---------------------------------------------------------------------------
    However, the program experienced problems on VIIRS, including poor 
workmanship on selected subcomponents and delays in completing key 
tests. These issues delayed VIIRS delivery to the NPP contractor by 
eight months. This late delivery will in turn delay the satellite's 
launch from late September 2009 to early June 2010. This delay shortens 
the time available for incorporating lessons learned from NPP while it 
is in orbit into future NPOESS missions and could lead to gaps in the 
continuity of climate and weather data if predecessor satellites fail 
prematurely. Also, the CrIS sensor experienced a cost overrun and 
schedule delays as the contractor worked to recover from a structural 
failure and is currently several weeks behind its schedule due to 
thermal vacuum testing taking longer than planned. The status and risk 
level of each of the components of the space segment is described in 
Table 5.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Program Risks Remain; Continued Oversight Is Needed to Prevent Further 
                    Cost Increases and Schedule Delays

    Moving forward, the program continues to face risks. Over the next 
two years, it will need to complete the development of the key sensors, 
test them, integrate and test them on the NPP spacecraft, and test 
these systems with the ground-based data processing systems. In 
addition, the program faces two other issues that could affect its 
overall schedule and cost. One is that there continues to be 
disagreement between NOAA and DOD on the appropriate level of system 
security. To date, NPOESS has been designed and developed to meet DOD's 
standards for a mission essential system, but NOAA officials believe 
that the system should be built to meet more stringent standards.\14\ 
Implementing more stringent standards could cause rework and retesting, 
and potentially affect the cost and schedule of the system. Another 
issue is that program life cycle costs could increase once a better 
estimate of the cost of operations and support is known. The $12.5 
billion estimated life cycle cost for NPOESS includes a rough estimate 
of $1 billion for operations and support.
---------------------------------------------------------------------------
    \14\ NOAA officials have stated that they believe the program 
should be built to a ``high'' security level per Federal Information 
Processing Standards Publication 199.
---------------------------------------------------------------------------
    The NPOESS program office is working closely with the contractor 
and subcontractors to resolve these program risks. To address sensor 
risks, the program office and officials from NASA's Goddard Space 
Flight Center commissioned an independent review team to assess the 
thoroughness and adequacy of practices being used in the assembly, 
integration, and testing of the VIIRS and CrIS instruments in 
preparation for the NPP spacecraft. The team found that the contractors 
for both sensors had sound test programs in place, but noted risks with 
VIIRS's schedule and with CrIS's reliability and performance. The 
program office adjusted the VIIRS testing schedule and is monitoring 
the CrIS testing results. In addition, the program office recently 
instituted biweekly senior-level management meetings to review progress 
on VIIRS's development, and program officials noted that both the prime 
contractor and the program executive office will have senior officials 
on-site at the contractor's facility to provide extensive, day-to-day 
oversight of management activities to assist in resolving issues.
    To address the risk posed by changing security requirements late in 
the system's development, program officials commissioned a study to 
determine the effect of more stringent standards on the system. This 
study was completed in March 2008, but has not yet been released. To 
address the risk of cost growth due to poor estimates of operations and 
support costs, DOD's cost analysis group is currently refining this 
estimate. Program officials estimated that the program costs could grow 
by about $1 billion, and expect to finalize revised operations and 
support costs in July 2008.
    The program office is aware of program risks and is working to 
mitigate them, but these issues could affect the program's overall 
schedule and cost. Given the tight time frames for completing key 
sensors, integrating them on the NPP spacecraft, and getting the 
ground-based data processing system developed, tested, and deployed, it 
is important for the NPOESS program office, the Program Executive 
Office, and the Executive Committee to continue to provide close 
oversight of milestones and risks.

Agencies Have Undertaken Preliminary Steps to Restore Key Sensors, but 
                    Lack Timely Plans to Ensure Long-Term Data 
                    Continuity

    When the NPOESS restructuring agreement removed four climate and 
space environment sensors from the program and degraded four others, it 
led NASA, NOAA, and DOD to reassess their priorities and options for 
obtaining climate and space environment data. Since the June 2006 
restructuring decision, the three agencies have taken preliminary steps 
to restore the capabilities of selected climate and space weather 
sensors that were degraded or removed from the NPOESS program by 
prioritizing the sensors, assessing options for restoring them, and 
making decisions to restore selected sensors in order to mitigate near-
term data gaps. However, the agencies have not yet developed plans to 
mitigate the loss of these sensors on a long-term basis. Best practices 
in strategic planning suggest that agencies develop and implement long-
term plans to guide their short-term activities. Until such plans are 
developed, the agencies may lose their windows of opportunity for 
selecting cost-effective options or they may resort to an ad hoc 
approach to restoring these sensors. Lacking plans almost two years 
after key sensors were removed from the NPOESS program, the agencies 
face increased risk of gaps in the continuity of climate and space 
environment data.
    While NPOESS was originally envisioned to provide only weather 
observations, this mission was later expanded to include long-term 
continuity for key climate data. Maintaining the continuity of climate 
and space data over decades is important to identify long-term 
environmental cycles (such as the 11-year solar cycle and multi-year 
ocean cycles including the El Nino effect) and their impacts, and to 
detect trends in climate change and global warming. The Nunn-McCurdy 
restructuring decision removed four sensors and degraded the 
functionality of four other sensors that were to provide these data. 
DOD, NASA, and NOAA are now responsible for determining what to 
restore, how to restore it, and the means for doing so. This 
responsibility includes justifying the additional funding needed to 
develop these sensors within their respective agencies' investment 
decision processes. Best practices of leading organizations call for 
defining a strategic plan to formalize priorities and plans for meeting 
mission goals. Such a plan would include the agency's long-term goals 
for climate and space weather measurements, the short-term activities 
needed to attain these goals, and the milestones and resources needed 
to support the planned activities.

NASA, NOAA, and DOD Have Identified Priorities, Assessed Options, and 
                    Made Decisions to Restore Selected Sensors

    Since the June 2006 restructuring, NASA, NOAA, and DOD have taken 
preliminary steps to restore sensor capabilities by determining 
priorities for restoring sensor capabilities, assessing options for 
obtaining sensor data over time, and making decisions to restore 
selected sensors. Specifically, in August 2006, the NPOESS Senior User 
Advisory Group--a group representing NASA, NOAA, and DOD system users--
assessed the impact of the canceled or degraded sensors and identified 
priorities for restoring them. In January 2007, a NOAA and NASA working 
group on climate sensors prioritized which of the sensors were most 
important to restore for climate purposes and proposed possible 
solutions and mitigation efforts. Two other groups--the National 
Research Council and a NOAA-DOD working group--have also issued reports 
describing the impact of the loss of climate and space environmental 
sensors, respectively.\15\ Table 6 summarizes the results of these 
studies.
---------------------------------------------------------------------------
    \15\ National Research Council, Options to Ensure the Climate 
Record from the NPOESS and GOES-R Spacecraft: A Workshop Report 
(Washington, D.C.: 2007), and the Office of the Federal Coordinator for 
Meteorological Services and Supporting Research, Impacts of NPOESS 
Nunn-McCurdy Certification and Potential Loss of ACE Spacecraft Solar 
Wind Data on National Space Environmental Monitoring Capabilities. 
(Washington, D.C.: January 2008). The report committee was co-chaired 
by the Director of the Space Weather Prediction Center (NOAA) and the 
Chief of the Integration, Plans, and Requirements division within the 
U.S. Air Force Directorate for Weather. Agency partners in the 
Department of Commerce, DOD, NASA, the National Science Foundation, and 
the Office of the Federal Coordinator for Meteorology concurred with 
the report.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to prioritizing the sensors, NASA, NOAA, and DOD 
identified a variety of options for obtaining key sensor data over the 
next two decades and continue to seek other options. The agencies 
identified options including adding sensors back to a later NPOESS 
satellite, adding sensors to another planned satellite, and developing 
a new satellite to include several of the sensors. Examples of options 
for several sensors are provided in Figure 1. In addition, in December 
2007, NOAA released a request for information to determine whether 
commercial providers could include selected environmental sensors on 
their satellites.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to prioritizing sensors and identifying options, over 
the last year, NASA, NOAA, and DOD have taken steps to restore three 
sensors on a near-term basis. Specifically, in April 2007, the NPOESS 
Executive Committee decided to restore the limb component of the Ozone 
mapper/profiler suite to the NPP satellite; in January 2008, to add the 
Clouds and the Earth's radiant energy sensor to NPP; and in May 2008 to 
add the Total solar irradiance sensor to the first NPOESS satellite. 
These decisions are expected to provide continuity for these sensors 
through approximately 2015. Table 7 shows the latest planned 
configuration of NPOESS satellites. NASA officials noted that they also 
took steps to mitigate a potential gap in total solar irradiance data 
by proposing to fund an additional four years of the SORCE mission 
(from 2008 to 2012).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Agencies Lack Plans to Ensure Long-Term Data Continuity

    While NASA, NOAA, and DOD have taken preliminary steps to address 
the climate and space sensors that were removed from the NPOESS program 
almost two years ago, they do not yet have plans for restoring climate 
and space environment data on a long-term basis. Specifically, there 
are as yet no firm plans for obtaining most of this data after 2015. 
The Office of Science and Technology Policy, an organization within the 
Executive Office of the President, is currently working with NASA, 
NOAA, and DOD to sort through the costs and benefits of the various 
options and to develop plans. However, this effort has been under way 
for almost two years and officials could not estimate when such plans 
would be completed.
    Delays in developing a comprehensive strategy for ensuring climate 
and space data continuity may result in the loss of selected options. 
For example, NASA and NOAA estimated that they would need to make a 
decision on whether to build another satellite to obtain ocean 
altimeter data in 2008. Also, the NPOESS program office estimated that 
if any sensors are to be restored to an NPOESS satellite, it would need 
a decision about six years in advance of the planned satellite launch. 
Specifically, for a sensor to be included on the second NPOESS 
satellite, the sponsoring agency would need to commit to do so by 
January 2010.
    Without a timely decision on a plan for restoring satellite data on 
a long-term basis, NASA, NOAA, and DOD risk losing their windows of 
opportunity on selected options and restoring sensors in an ad hoc 
manner. Ultimately, the agencies risk a break in the continuity of 
climate and space environment data. As national and international 
concerns about climate change and global warming grow, these data are 
more important than ever to try to understand long-term climate trends 
and impacts.

GAO Made Recommendations to Ensure That Future Climate Needs Are 
                    Addressed and to Complete Restructuring Activities

    Because of the importance of effectively managing the NPOESS 
program to ensure that there are no gaps in the continuity of critical 
weather, environmental, and climate observations, in our accompanying 
report\16\ we made recommendations to the Secretaries of Commerce and 
Defense and to the Administrator of NASA to establish plans on whether 
and how to restore the climate and space sensors removed from the 
NPOESS program by June 2009, in cases where the sensors are warranted 
and justified. In their comments on the report, all three agencies 
concurred with our recommendations. In addition, both the Department of 
Commerce and NASA reiterated that they are working with their partner 
agencies to finalize plans for restoring sensors.
---------------------------------------------------------------------------
    \16\ GAO-08-518.
---------------------------------------------------------------------------
    In addition, we also reemphasized a recommendation made in our 
prior report that the appropriate NASA, NOAA, and DOD executives 
immediately finalize key acquisition documents. All three agencies also 
concurred with this recommendation. Further, Commerce noted that DOD 
and NASA executives need to weigh in to resolve issues at, or 
immediately below, their levels in order to ensure prompt completion of 
the key acquisition documents. NASA noted that difficulties in gaining 
consensus across all three NPOESS agencies have delayed the signature 
of key acquisition documents, and reported that they are committed to 
moving these documents through the signature cycle once all of the 
issues and concerns are resolved.
    In summary, over the past year, program officials have completed 
major activities associated with restructuring the NPOESS program and 
have made progress in developing and testing sensors, ground systems, 
and the NPP spacecraft. However, multiple risks remain. Agency 
executives have still not signed off on key acquisition documents that 
were originally to be completed in September 2006, and now DOD is 
threatening to withhold funding if the documents are not completed by 
August 2008--even though DOD has contributed to the delays in 
completing these documents. Also, one critical sensor has experienced 
technical problems and schedule delays that have led program officials 
to delay the NPP launch date by about eight months. Any delay in the 
NPP launch date shortens the time available for incorporating lessons 
learned from NPP onto future NPOESS missions and could also lead to 
gaps in critical climate and weather data. In addition, risks to the 
program remain in resolving interagency disagreements on the 
appropriate level of system security and in revising estimated costs 
for satellite operations and support. The program office is aware of 
these risks and is working to mitigate them, but continued problems 
could affect the program's overall schedule and cost.
    When selected climate and space weather sensors were removed from 
the NPOESS program during its restructuring, NASA, NOAA, and DOD became 
responsible for determining what environmental data to restore and how 
to restore them. This responsibility includes justifying the additional 
funding needed to develop these sensors within their respective 
agency's investment decision processes. In the two years since the 
restructuring, the agencies have identified their priorities and 
assessed their options for restoring sensor capabilities. In addition, 
the agencies made decisions to restore two sensors to the NPP satellite 
and one to the first NPOESS satellite in order to mitigate near-term 
data gaps. However, the agencies lack plans for restoring sensor 
capabilities on a long-term basis. Without a timely decision on a long-
term plan for restoring satellite data, the agencies risk a break in 
the continuity of climate and space environment data. With the 
increased concern about climate change and global warming, these data 
are more important than ever to try to understand long-term climate 
trends and impacts.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or Members of the Committee may have at 
this time.
    If you have any questions on matters discussed in this testimony, 
please contact me. Other key contributors to this testimony include 
Colleen Phillips (Assistant Director), Kate Agatone, and Kathleen S. 
Lovett.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     Biography for David A. Powner

Experience

    Twenty years' experience in information technology issues in both 
public and private sectors.

Education

Business Administration, University of Denver

Senior Executive Fellows Program, Harvard University, John F. Kennedy 
School of Government

Director, IT Management Issues, U.S. Government Accountability Office

    Dave is currently responsible for a large segment of GAO's 
information technology (IT) work, including systems development, IT 
investment management, health IT, and cyber critical infrastructure 
protection reviews.
    In the private sector, Dave has held several executive-level 
positions in the telecommunications industry, including overseeing IT 
and financial internal audits, and software development associated with 
digital subscriber lines (DSL).
    At GAO, Dave has led teams reviewing major IT modernization efforts 
at Cheyenne Mountain Air Force Station, the National Weather Service, 
the Federal Aviation Administration, and the Internal Revenue Service. 
These reviews covered many information technology areas including 
software development maturity, information security, and enterprise 
architecture.

    Chairman Lampson. Thank you, Mr. Powner. Admiral 
Lautenbacher, you are recognized for five minutes.

  STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR. (U.S. 
    NAVY, RET.), UNDER SECRETARY OF COMMERCE FOR OCEANS AND 
  ATMOSPHERE; ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
                     ADMINISTRATION (NOAA)

    Vice Admiral Lautenbacher. Thank you, Mr. Chairman. 
Chairman Lampson, Ranking Member Inglis, and distinguished 
Members of the Committee, and staff, I appreciate this 
opportunity to provide an update on the development of the 
NPOESS, the National Polar-Orbiting Operational Environmental 
Satellite System program and discuss the latest Government 
Accountability Office report. I continue to value and use the 
input and insight provided by Mr. Powner and his team at GAO.
    NOAA's two environmental satellite programs are the 
backbone of the Nation's hurricane and severe weather 
forecasting and warning capabilities. Today we are here to talk 
about our next generation polar satellite program, NPOESS. As 
you know, the original goal of the NPOESS program was to 
combine the polar satellite needs and requirements of the Air 
Force and NOAA into one program while also providing a 
continuation of certain NASA satellite measurements, mostly in 
the climate area.
    While it has been said before, I must reiterate: satellite 
acquisitions are complex and difficult endeavors. This program 
also has the additional complexity of being a tri-agency effort 
made up of the Department of Commerce, Department of Defense, 
and NASA. Now, because of the Executive Committee's key 
decisions that were begun prior to the Nunn-McCurdy review in 
2006, management and oversight of this program has been vastly 
improved, but we still face significant challenges as outlined 
by GAO.
    It is important for the Committee to understand that, as 
mentioned in the GAO testimony, the other four main 
instruments, as well as the satellite bus and ground system are 
on budget, on schedule, and performing well in testing with no 
significant concerns. I continue to remain concerned, however, 
about contractor performance and management as it pertains to 
the Visible/Infrared Imager/Radiometer Suite known as VIIRS. 
VIIRS continues to be our most challenging instrument to 
develop. With the government management system now in place, I 
believe we are better positioned to identify, contain, and 
manage proactively the challenges as they arise. After testing 
late last year, for example, showed some technical problems 
with cooling systems and circuit boards, a complete review was 
held and the delivery of the instrument had to be delayed about 
eight months which in turn delayed the NPP NASA launch by eight 
months from September of 2009 to June 2010. There was no effect 
on the C-1 through C-4 satellite schedule.
    In the last two weeks--to indicate our ability to keep this 
committee updated--within the last two weeks during integration 
testing, as mentioned, the program uncovered some quality and 
workmanship issues with certain fasteners which hold the 
different pieces of VIIRS together. I am happy to report this 
morning that we have received an update last night from our 
technical assessment team that the effect of this manufacturing 
flaw will likely be very minimal to the program. At this time 
we do not anticipate it will delay the delivery of the VIIRS 
sensor to NPP. I believe this issue is under control at this 
point.
    The Cross-track Infrared Sounder, CrIS, is undergoing final 
preparation for delivery at the end of July 2008 to begin 
integration on the NPP satellite. The Ozone Mapping and 
Profiler Suite, called OMPS, the Limb and Nadir instruments 
that will fly on NPP have been tested and integrated as a unit. 
Specifically, regarding GAO's most recent report on NPOESS, the 
first recommendation calls for plans to restore the climate and 
space sensors removed from the NPOESS program by June 2009. As 
the Committee knows, this has been a high priority for NOAA and 
the Administration. The EXCOM has approved restoring the OMPS 
Limb and CERES\4\ instruments onto NPP and remanifesting 
TSIS\5\ onto the first NPOESS satellite. Meeting the deadlines 
to integrate these instruments onto NPP and the first NPOESS 
satellite will require fully funding the Administration's $74 
million climate sensor request in the fiscal year 2009 budget. 
I am pleased to indicate that we have gained support from the 
Appropriations Committees for these initiatives and look 
forward to successful work on restoring these sensors.
---------------------------------------------------------------------------
    \4\ Clouds and Earth's Radiant Energy System
    \5\ Total Solar Irradiance Sensor
---------------------------------------------------------------------------
    We are actively working on plans for the rest of the 
climate sensors de-manifested from NPOESS. In the near-term for 
Altimetry, the Jason-2 mission is expected to launch this 
month, and we have begun preliminary work on the Jason-3 
mission which will allow continuity through the next couple of 
decades. With regard to aerosol measurements, they will be 
continued through the NASA's upcoming Glory mission, and we 
will look at the results from that and work on the follow-on.
    Regarding a restoration of the space weather sensors, we 
continue to work closely with NASA, the Air Force, and the 
space/weather user community to ensure that plans address user 
requirements. We have provided the Office of Science and 
Technology Policy at the White House with a report earlier this 
year to explain what the issues are, and we are awaiting 
further direction for the next steps and expect that to happen 
shortly.
    The second recommendation by GAO re-emphasizes the prior 
recommendation that appropriate NASA, NOAA, and DOD executives 
immediately finalize key acquisition documents. I 
wholeheartedly agree with this recommendation. We have made 
significant progress. Sixteen of the 22 documents have been 
finalized. My team and I have been working very hard with the 
EXCOM and DOD to reach the agreements required to complete the 
six outstanding ADM\6\ documents. I am prepared to go through 
each one and explain the issues that are involved with them if 
you desire, or I can provide that for the record.
---------------------------------------------------------------------------
    \6\ Acquisition Decision Memorandum
---------------------------------------------------------------------------
    Let me conclude by addressing some concerns that have 
arisen from a recent internal memo by Mr. John Young, the Under 
Secretary of Defense for Acquisition, Technology, and 
Logistics. This memo discussed performance measures for NPOESS 
components, new cost estimates for the operations of NPOESS, 
alternative management studies, and completion of the ADM 
documents. Regarding performance measures for NPOESS, let me 
assure the Committee that I and my EXCOM partners are committed 
to ensuring NPOESS fulfills its six key performance parameters. 
NPOESS will provide roughly 10 times more data at four times 
the speed of our current satellites. It is a significant 
increase, and it continues to be on track to do that. Mr. 
Young's memo was trying to clarify that the whole NPOESS 
program shouldn't be put at risk to meet a specific performance 
capability. I agree, as the EXCOM does with Mr. Young. I 
further clarified in a response letter that the user community 
and the EXCOM should be involved in any decisions about changes 
to performance given the Nunn-McCurdy review and our charge to 
manage the program.
    During the Nunn-McCurdy review, the focus--I am on cost 
estimates now--the focus of cost estimators was on the 
development and the launch of the satellite program, not on the 
out-year operational costs which occur far down the line. After 
the NPOESS contract had been restructured last fall, the EXCOM 
asked the program budget staff to re-examine the original 2002 
estimates for NPOESS operational costs used during the Nunn-
McCurdy review. We then asked the DOD independent cost 
estimators for its review of the operations cost and ensure we 
had the best information available to deal with this program. 
Given that the program will now last longer, three to four 
years longer, it appears that an additional $1 billion is 
potentially required. We are reconciling at this point the 
different estimates, and the Executive Committee will make any 
final budget decisions on the expected increases. These 
additional operations cost would not be effective until 
beginning in the 2017 timeframe. They would be normal costs 
that are applied to our budget as we apply operation costs 
today to run the satellites we have in position and are again 
not part of the procurement and development costs.
    This timeframe also gives us time to examine alternatives 
to ensure the most cost-effective solution for these 
requirements. We believe we have alternatives to deal with 
those estimates as they exist today. In addition, the program 
budget staff and the independent cost estimators have 
identified some likely growth in the NPOESS development and 
production costs due mostly to the ongoing problems with VIIRS 
as mentioned, and that regards the need to retain personnel as 
the next VIIRS units are built. Estimates for these additional 
costs are still being finalized, and we will reconcile them. It 
is part of our deliberate process to ensure that next year's 
budget is properly developed to ensure completion of this 
system.
    The Nunn-McCurdy certification called for the government to 
make a decision in 2010 whether to proceed with the third and 
fourth NPOESS satellites under the existing contract or develop 
an alternative management structure, such as a different prime 
contractor or having the government manage the instrument 
production, for instance. PEO\7\ has completed and reported to 
Mr. Young on the first phase of this study and indicated that 
today no immediate management changes were warranted given what 
has been put in place. However, the EXCOM has asked for six-
month updates as the PEO and the Independent Review Team 
examine all aspects of the program for any possible changes in 
preparation for the 2010 decision.
---------------------------------------------------------------------------
    \7\ Program Executive Officer
---------------------------------------------------------------------------
    Finally, with regard to Mr. Young's memo, some may suggest 
its call for the administrative documents to be completed by 
September 2008 or DOD funding would be re-evaluated shows a 
lack of commitment to the program. From my experience, the DOD, 
the Air Force, the Department of Commerce, and the Nation need 
NPOESS to succeed. It is crucial to our ability to forecast 
weather, for the war fighter, for our nation's citizens, and 
for its impact on the Nation's economy. And since Mr. Young and 
his office are a part of the ADM document process, and I have 
talked to their office this morning, I have confidence that we 
can all work together to finish this job very quickly. I 
appreciate the Committee's continued interest in the success of 
the NOAA satellite programs. I believe we are doing everything 
we can possibly think of and bring into effect to keep this 
program on track. We have instituted large-scale management and 
oversight reforms. We have government officials at contractor 
facilities participating in daily activities and daily 
oversight meetings. We measure the daily cost/schedule 
performance of the program at innumerable levels at this point. 
We are making progress as indicated. But technical and 
manufacturing problems can and will continue to arise, I 
believe. We will continue to do our best to fix them. I am 
happy to expand on any of these points and to answer questions 
from the Committee.
    Thank you, Mr. Chairman.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]
     Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr.
                           (U.S. Navy, Ret.)

Introduction

    Mr. Chairman and Members of the Subcommittee, I am Conrad C. 
Lautenbacher, Jr., Under Secretary for Oceans and Atmosphere and 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA) in the Department of Commerce (DOC). I appreciate having the 
opportunity to provide an update of our progress in the development of 
the National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) Program and discuss the latest Government Accountability 
Office (GAO) report on the program. I will provide an update on the 
Program since the June 7, 2007, hearing that reviewed the status of the 
restructured NPOESS Program.
    NOAA's environmental satellite programs are the backbone of the 
Nation's hurricane and severe weather forecasting and warning 
capabilities. The 30-year record of NOAA's environmental satellites to 
the global climate record is also well known. NOAA's two major 
satellite programs each play critical roles in providing environmental 
information to the Nation. NOAA's Geostationary Operational 
Environmental Satellite (GOES) series is used for short-term weather 
forecasting and severe storm tracking, while NOAA's Polar-orbiting 
Operational Environmental Satellite (POES) series provides information 
that is crucial to long-term weather predictions and climate modeling. 
In early 2009, NOAA N-Prime, the last of the current NOAA POES series, 
will be launched.

Status of the NPOESS Program

    NOAA's satellite acquisitions are complex and difficult development 
efforts. I will be the first to acknowledge that the government does 
not have a strong track record with regard to recent satellite 
acquisition development efforts. Through partnerships with the National 
Aeronautics and Space Administration (NASA) and the Department of 
Defense (DOD), and our contracts with industry, we have built and are 
reinforcing our team to successfully complete NPOESS satellite 
development. We appreciate GAO's long-standing review of the NPOESS 
Program and the guidance and oversight we have derived from it. NOAA is 
working hard to develop our satellite programs within established cost 
and schedule boundaries, and with the performance that the Nation 
requires and expects.
    The NPOESS program is funded equally (50:50) by DOC/NOAA and DOD/
Air Force annual appropriations. NASA conducts NPOESS Preparatory 
Project (NPP) risk reduction and data continuity activities, DOD/Air 
Force manages the acquisition contract, and DOC/NOAA provides overall 
program management and operation of the system. Through FY 2008, the 
NPOESS program will have incurred combined program costs of $4.4 
billion. The President's FY 2009 Budget request for the NPOESS Program 
is $577 million; of that amount, $288 million is requested for DOC/
NOAA, and $289 million for DOD/Air Force.
    Since the NPOESS Program's restructure and the contract 
renegotiation, we have completed a number of management changes that 
have improved oversight:

        <bullet>  Mr. Dan Stockton was selected as the new Program 
        Executive Officer by NOAA with the concurrence of the NPOESS 
        Executive Committee (EXCOM).

        <bullet>  Colonel Ed Phillips was recently selected as System 
        Program Director. He currently serves as the acting System 
        Program Director. Prior to that, he was the NPOESS Deputy 
        Program Executive Officer.

        <bullet>  A restructured NPOESS contract is in place that ties 
        contractor compensation to more objective measures of cost, 
        schedule, and performance.

        <bullet>  The government has replaced the old award fee 
        structure with a clearer performance-based structure.

        <bullet>  The Chief Executive Officers of Northrop Grumman and 
        Raytheon now attend the regularly scheduled NPOESS EXCOM 
        meetings to ensure that the appropriate resources of these 
        corporations are focused on the development and test issues of 
        the program.

        <bullet>  Several key climate sensors have been remanifested 
        (or reinstated) on the NPP and NPOESS satellites.

        <bullet>  A lower risk alternative to the Conical-scanned 
        Microwave Imager/Sounder (CMIS), the Microwave Imager/Sounder 
        (MIS), is being developed by the Naval Research Laboratory. The 
        MIS will be flown on the second (C-2) and third (C-3) NPOESS 
        satellites.

        <bullet>  The current suite of instruments listed in Appendix 1 
        reflects the progress the government has made since 2006 to 
        continue weather and climate measurements.

    As a part of the future planning for the program, the NPOESS 
Integrated Program Office (IPO) has begun the Alternative Management 
Study which will develop the options and assessments for viable 
competing management structures for the NPOESS program. The Alternative 
Management Study will support future acquisition strategies for the 
EXCOM consideration.
    A few of the NPOESS instruments continue to face challenges, but 
with the Program Managers and Systems Engineers who are now in place, I 
and the NPOESS EXCOM believe that the Program is better positioned to 
proactively identify, contain, and manage these challenges as they 
arise.
    The table below lists the instruments on NPP and the C-1 satellite.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Visible/Infrared Imager/Radiometer Suite (VIIRS) continues to 
be our most challenging instrument to develop, and as such receives a 
great deal of management and oversight by the government and NPOESS 
contractor team. We have implemented a number of changes based on the 
lessons learned during the events that lead to the 2006 restructuring 
of the Program and on the issues we have encountered since then. The 
tri-agency partners have instituted rigorous management and engineering 
reviews to address and resolve problems in an orderly fashion, while at 
the same time not posing undue risk to the overall Program. With 
respect to the current challenges with the VIIRS instrument, the 
Program Executive Officer and System Program Director, with assistance 
from NASA, are working with the NPOESS contractors to focus the 
appropriate attention and resources to address the VIIRS development 
challenges.
    As the Committee recently learned, the NPOESS program uncovered 
some potentially significant fastener design flaws with VIIRS in the 
past few weeks. Although we are cautiously optimistic that technical 
assessments will result in minimal impact, the worst case scenario 
could cause a several month delay to the delivery of VIIRS to NPP, 
which could lead to a further launch delay for NPP.
    The Cross-track Infrared Sounder (CrIS) is undergoing extensive 
planning and preparation for final sensor checklist items to be 
complete in time for delivery for NPP integration at the end of July 
2008. The Ozone Mapping and Profiler Suite (OMPS)-Limb and -Nadir 
instruments that will fly on NPP have been integrated and a test of the 
sensors has been completed.
    With respect to the ground system, the IPO continues to make 
progress on ``SafetyNet,'' a system of globally distributed ground data 
reception stations that will receive data from NPOESS satellites and 
immediately relay these data to the four Weather Centrals--NOAA/
National Environmental Satellite, Data and Information Service; Air 
Force Weather Agency; Fleet Numerical Meteorology and Oceanography 
Center; and Naval Oceanographic Office. The SafetyNet agreements are on 
schedule and there are no outstanding obstacles that would prevent 
completing the global ground system network.
    Development of the Integrated Data Processing Segment (IDPS) 
continues on-track. The IDPS will process environmental data products 
beginning with the NPOESS Preparatory Project (NPP) and continuing 
through the lifetime of the NPOESS system. The IDPS must process a data 
volume significantly greater than the current POES and DMSP systems and 
within significantly reduced processing times. The IDPS recently 
completed factory acceptance test readiness review.

Coordination of Tri-agency Acquisition Decision Memoranda

    The IPO continues to coordinate among the tri-agency partners, DOD/
Air Force, NASA, and DOC/NOAA, to conclude and finalize the documents 
required by the June 2006 Acquisition Decision Memorandum. Six 
documents remain to be completed. While getting these remaining 
documents finalized has not hindered our ability to manage and 
implement the NPOESS Program thus far, they have been challenging to 
coordinate through a tri-agency process. However, the EXCOM remains 
committed to completing them. At this time, the six outstanding 
documents are the:

        <bullet>  Fee Management Plan

        <bullet>  Acquisition Program Baseline

        <bullet>  Acquisition Strategy Report

        <bullet>  Test and Evaluation Master Plan

        <bullet>  Two-Orbit Program

        <bullet>  NPOESS Tri-Agency Memorandum of Agreement

    The program is working to secure final clearance on the documents 
by later this year.

Status of Restoring Key Climate Sensors

    As discussed earlier, the 2006 decision to restructure the NPOESS 
Program removed (or ``demanifested'') several planned sensors that 
would have sustained key, long-standing climate measurements. The table 
in Appendix 2 lists the current status of those demanifested sensors. 
Since this decision, Office of Science Technology Policy (OSTP) and the 
Office of Management and Budget have worked closely with NASA and NOAA 
and the climate science community to understand the implications of the 
loss of these climate sensors for climate and ocean research 
activities, and to identify options for retaining key measurement 
capabilities from this group of planned sensors.
    As a result of these assessments and information provided in the 
2007 National Research Council Decadal Survey on Earth Sciences, the 
Administration concluded that the highest near-term priorities (listed 
in relative priority order) are to sustain the data sets of the 
following five key climate measurement capabilities:

        <bullet>  Total solar irradiance

        <bullet>  Earth radiation budget

        <bullet>  RADAR altimetry

        <bullet>  Ozone vertical profile

        <bullet>  Aerosols

    In addition to continuing these critical measurements, the 
Administration also recognized the importance of stewardship of the 
climate data records that will be derived from these instruments.
    The Administration developed a plan to implement this assessment 
and requested a $74 million budget initiative in the President's FY 
2009 Budget Request. These funds will be used to support the 
development of CERES and TSIS in time for their respective launches on 
NPP and C-1. Specifically, the FY 2009 funds would be applied to the 
development of the sensors in the following manner:

        <bullet>  $38 million for development of CERES for NPP and C-1, 
        which will provide continuity for Earth radiation budget 
        measurements,

        <bullet>  $28 million for development of TSIS for C-1, which 
        will provide continuity for total solar irradiance 
        measurements, and

        <bullet>  $8.0 million for development of data record 
        stewardship to provide long-term science support for the data 
        derived from climate instruments.

    This plan complies with the 2006 restructure of the NPOESS Program 
that requires sensors be restored only if they are funded separately 
from the joint DOC/NOAA-DOD/Air Force annual appropriations for NPOESS. 
In this plan, NOAA is responsible for full funding to develop these 
instruments with NASA providing technical and acquisition assistance on 
a cost reimbursable basis from NOAA.
    The plan includes two of the five key measurements detailed in the 
priority list above. NOAA and NASA have determined that near-term 
continuity of the other three measurements can be fulfilled through 
existing plans detailed below:

        <bullet>  Continuity of RADAR altimetry measurements can be 
        fulfilled through the Jason 2 mission scheduled for launch this 
        month. Plans for a follow-on satellite (Jason 3) are currently 
        being evaluated.

        <bullet>  Aerosol measurements can be fulfilled with the 2009 
        launch of the Aerosol Polarimeter Sensor on the NASA GLORY 
        mission.

        <bullet>  Ozone vertical profile data requirements can be 
        addressed by the NPOESS EXCOM's 2007 decision to remanifest 
        Ozone Mapping and Profiler Suite Limb sensor (OMPS-Limb) with 
        the OMPS-Nadir sensor onto NPP.

    While these efforts address the most immediate needs for climate 
sensor continuity, it is recognized that a longer-term strategy for 
climate sensor continuity must also be addressed. NOAA and NASA are 
continuing to work together to identify the longer-term strategy, 
taking into account current and future national and international 
assets. The results of these efforts will continue to be vetted with 
the science community and reflected in outyear budget recommendations.

Status of Demanifested Space Weather Sensors

    In addition to the climate sensors discussed above, the Space 
Environmental Sensor Suite, which includes five space weather sensors, 
was demanifested from the NPOESS program in 2006. In June 2007, OSTP 
requested that the Office of the Federal Coordinator for Meteorology 
convene an interagency group to provide an assessment of the impact of 
demanifesting these space weather sensors. NOAA, NASA, and the Air 
Force participated in this assessment. The assessment and report 
focused on evaluating whether and how to restore these space weather 
measurements in a two phase approach:

         Phase I: Assess the impacts of the 2006 NPOESS restructure 
        decisions and the potential loss of NASA's Advanced Composition 
        Explorer (ACE) mission on U.S. space weather-related 
        activities.

         Phase II: Examine possible options to address these impacts 
        and to restore the capability lost.

    The Phase I report was provided to OSTP earlier this year. The main 
findings were that the 2006 restructuring of the NPOESS program:

        <bullet>  reduced support of Environmental Data Records from 12 
        to 5,

        <bullet>  may cause monitoring and warning capabilities to 
        revert to pre-1980 levels, and

        <bullet>  put precision Global Positioning System (GPS) users 
        at risk.

    Additionally, the loss of NASA's ACE data was deemed critical as it 
would eliminate the ability to predict the onset of geomagnetic storms. 
At this time, NASA has instituted a fuel management strategy that may 
allow ACE to continue to perform until 2020. However, since there is no 
ACE replacement in development, this single source of data remains an 
area of concern for NOAA and the space weather community. While OSTP 
has not formally initiated Phase II of the assessment, it is expected 
to do so later this year.
    In addition, the Committee was informed last month that NOAA is 
currently working to mitigate the loss of some space weather 
observation capabilities on three of four of its on-orbit geostationary 
satellites. NOAA is currently relying on GOES-10, the oldest 
geostationary satellite on orbit, to monitor solar flares, an 
observation important to users of satellite and high frequency 
communications and GPS. Plans for future mitigation following the end 
of the satellite's service are being planned in partnership with NASA.

Government Accountability Office (GAO) Recommendations for Executive 
                    Action

    GAO has provided regular reviews of the NPOESS Program and we 
appreciate the perspective GAO professionals provide. We have met with 
GAO and provided information and feedback on its most recent report and 
believe that existing efforts underway will support the closure of 
these recommendations.

Recommendation number one: In order to bring closure to efforts that 
have been underway for years, we are making recommendations to the 
Secretaries of Commerce and Defense and to the Administrator of NASA to 
establish plans on whether and how to restore the climate and space 
sensors removed from the NPOESS Program by June 2009, in cases where 
the sensors are warranted and justified.

    NOAA concurs with the recommendation and continues to work with 
OSTP, OMB, NASA, and the climate science community to restore the 
climate sensors that were demanifested from the NPOESS Program in 2006. 
While the NPOESS Program continues to face challenges, the tri-agency 
NPOESS EXCOM, on the advice of the NPOESS Program Executive Officer, 
approved remanifesting OMPS-Limb and CERES onto NPP, and remanifesting 
TSIS onto the first NPOESS C-1 satellite. Meeting the required 
deadlines to integrate these instruments onto NPP and NPOESS C-1 
requires full funding of the DOC/NOAA and DOD/Air Force NPOESS Program, 
and the NOAA climate sensor and climate data record budget requests. An 
FY 2009 continuing resolution that did not provide full funding for the 
$74 million for climate sensors would threaten the development of the 
TSIS and CERES sensors and potentially put into question whether they 
would be ready for integration onto the NPOESS C-1 mission. Restoration 
of the other measurements will occur in the later years, as previously 
discussed.
    Restoration of the space weather sensors is being modeled after the 
collaborative interagency process with OSTP and OMB that was used to 
assess the demanifested climate sensors. NOAA continues to work closely 
with user communities affected by space weather to ensure that its 
plans address user requirements. NOAA is also working closely with NASA 
to maximize the utility of the ACE satellite. In the interim, NOAA has 
requested input from the aerospace industry and several suggested 
concepts and proposals are being evaluated as potential commercial 
opportunities for data purchases, secondary payload opportunities, and 
commercially provided satellites to meet projected NOAA observational 
requirements.

Recommendation number two: In addition, we are reemphasizing our prior 
recommendation that the appropriate NASA, NOAA, DOD executives 
immediately finalize key acquisition documents.

    NOAA concurs with this recommendation and has been working with the 
tri-agency NPOESS EXCOM to reach the agreements required to complete 
the six outstanding Acquisition Decision Memorandum documents. 
Recently, the Under Secretary of Defense for Acquisition, Technology, 
and Logistics issued an extension until August 2008 to complete the 
documents. The NPOESS Program Executive Officer has made completing 
this task one of his top priorities and the EXCOM Principals and their 
staffs are supporting his efforts.

Conclusion

    In conclusion, I appreciate the Committee's continued interest in 
the success of NOAA's satellite programs. It is widely acknowledged 
that satellites are very complicated and difficult systems to design, 
build, and operate. However, their capabilities play a key role in 
NOAA's mission to observe and predict the Earth's environment and to 
provide critical information used in protecting life and property.
    We are making significant strides in developing better processes 
for designing and acquiring our satellites. We currently have well 
functioning operational satellites with backup systems in place, and we 
are working on the next generation that will provide significant 
improvements in our ability to forecast the weather and monitor the 
climate. I would be happy to answer any questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Biography for Vice Admiral Conrad C. Lautenbacher, Jr., Navy (Ret.)
    A native of Philadelphia, Pa., retired Navy Vice Admiral Conrad C. 
Lautenbacher, Ph.D., is serving as the Under Secretary of Commerce for 
Oceans and Atmosphere. He was appointed Dec. 19, 2001. Along with this 
title comes the added distinction of serving as the eighth 
Administrator of the National Oceanic and Atmospheric Administration. 
He holds an M.S. and Ph.D. from Harvard University in applied 
mathematics.
    Lautenbacher oversees the day-to-day functions of NOAA, as well as 
laying out its strategic and operational future. The agency manages an 
annual budget of $4 billion. The agency includes, and is comprised of, 
the National Environmental Satellite, Data and Information Services; 
National Marine Fisheries Service; National Ocean Service; National 
Weather Service; Oceanic and Atmospheric Research; Marine and Aviation 
Operations; and the NOAA Corps, the Nation's seventh uniformed service. 
He directed an extensive review and reorganization of the NOAA 
corporate structure to meet the environmental challenges of the 21st 
century.
    As the NOAA administrator, Lautenbacher spearheaded the first-ever 
Earth Observation Summit, which hosted ministerial-level representation 
from several dozen of the world's nations in Washington July 2003. 
Through subsequent international summits and working groups, he worked 
to encourage world scientific and policy leaders to work toward a 
common goal of building a sustained Global Earth Observation System of 
Systems (GEOSS) that would collect and disseminate data, information 
and models to stakeholders and decision-makers for the benefit of all 
nations individually and the world community collectively. The effort 
culminated in an agreement for a 10-year implementation plan for GEOSS 
reached by the 55 member countries of the Group on Earth Observations 
at the Third Observation Summit held in Brussels February 2005.
    He also has headed numerous delegations at international 
governmental summits and conferences around the world, including the 
U.S. delegation to 2002 Asia-Pacific Economic Cooperation Ocean 
Ministerial Meeting in Korea, and 2002 and 2003 meetings of the World 
Meteorological Organization and Intergovernmental Oceanographic 
Commission in Switzerland and France, as well as leading the Commerce 
delegation to the 2002 World Summit on Sustainable Development in South 
Africa.
    Before joining NOAA, Lautenbacher formed his own management 
consultant business, and worked principally for Technology, Strategies 
& Alliances Inc. He was president and CEO of the Consortium for 
Oceanographic Research and Education (CORE). This not-for-profit 
organization has a membership of 76 institutions of higher learning and 
a mission to increase basic knowledge and public support across the 
spectrum of ocean sciences.
    Lautenbacher is a graduate of the U.S. Naval Academy (Class of 
1964), and has won accolades for his performance in a broad range of 
operational, command and staff positions both ashore and afloat. He 
retired after 40 years of service in the Navy. His military career was 
marked by skilled fiscal management and significant improvements in 
operations through performance-based evaluations of processes.
    During his time in the Navy, he was selected as a Federal Executive 
Fellow and served at the Brookings Institution. He served as a guest 
lecturer on numerous occasions at the Naval War College, the Army War 
College, the Air War College, The Fletcher School of Diplomacy, and the 
components of the National Defense University.
    His Navy experience includes tours as Commanding Officer of USS 
HEWITT (DD-966), Commander Naval Station Norfolk; Commander of Cruiser-
Destroyer Group Five with additional duties as Commander U.S. Naval 
Forces Central Command Riyadh during Operations Desert Shield and 
Desert Storm, where he was in charge of Navy planning and participation 
in the air campaign. As Commander U.S. Third Fleet, he introduced joint 
training to the Pacific with the initiation of the first West Coast 
Joint Task Force Training Exercises (JTFEXs).
    A leader in the introduction of cutting-edge information 
technology, he pioneered the use of information technology to mount 
large-scale operations using sea-based command and control. As 
Assistant for Strategy with the Chief of Naval Operations Executive 
Panel, and Program Planning Branch Head in the Navy Program Planning 
Directorate, he continued to hone his analytic skills resulting in 
designation as a specialist both in Operations Analysis and Financial 
Management. During his final tour of duty, he served as Deputy Chief of 
Naval Operations (Resources, Warfare Requirements and Assessments) in 
charge of Navy programs and budget.
    Lautenbacher lives in Northern Virginia with his wife Susan who is 
a life-long high school and middle school science teacher.

                               Discussion

                    Executive Committee Performance

    Chairman Lampson. Thank you, Admiral Lautenbacher. Let us 
start with Mr. Powner and then go to the discussion about the 
Executive Committee. This committee has been told that the 
Executive Committee represents the group responsible for the 
top decisions in the NPOESS program. We have had many concerns 
about the EXCOM performance. You have seen the EXCOM in 
operation. What, to you, explains the repeated difficulty in 
getting decisions made on the NPOESS issues?
    Mr. Powner. Mr. Chairman, I think when we look at these key 
acquisition documents, the one area where we want to fault the 
program is the Executive Committee. The Executive Committee was 
put in place to ensure that we work appropriately across 
organizational boundaries. We have different cultures, we have 
different bureaucratic processes. We are running into that, but 
that is still no excuse. The Executive Committee needs to step 
up and to ensure that these key acquisition documents get 
signed. I think the threat from DOD is not a bad thing given 
that we now have this August deadline to get these signed, but 
DOD is equally at fault here. I mean, almost every one of the 
documents they mention in their memo are waiting approval at 
DOD.
    Chairman Lampson. At just the one agency, Department of 
Defense?
    Mr. Powner. No, there is also--we had information as of two 
days ago, and there were still some documents in the Department 
of Commerce that needed approval also. So we have multiple 
organizations that need to agree to these documents and to 
ensure that they get signed off so that we can move forward. 
And it is key that we have interagency agreement here. And one 
of these documents is the approved baseline. You know, there is 
a fundamental question about what baseline are we working off 
and when are we going to start the clock ticking for perhaps, 
you know, measurement for the next Nunn-McCurdy decision. Right 
now, we don't have a baseline that we are marching off of right 
now.
    Chairman Lampson. Is it the individuals who sit on the 
Committee or is it the culture of the agencies that is 
preventing the individuals who are sitting on the Committee 
from being able to make these decisions?
    Mr. Powner. Both. I think the individuals on the Executive 
Committee were put in place to work within their organizations, 
but clearly, I am sure the Admiral would agree, there are 
individuals above him at both organizations where there has 
been a hang-up. But still, that is no excuse for the Executive 
Committee not to step up and work upwards to get these key 
documents approved.
    Chairman Lampson. Admiral, in the period leading up to the 
Nunn-McCurdy restructuring of NPOESS, this committee examined a 
good bit of the communications that went from the Integrated 
Program Office to the EXCOM. We became concerned because it 
appeared that at a time when the program needed firm 
leadership, the EXCOM regularly postponed decisions, if it met 
at all. The Department's Inspector General determined that the 
EXCOM did not challenge optimistic statements by the program 
manager even as the VIIRS instrument fell further behind 
schedule and grew in cost. You testified to the Committee at a 
hearing two years ago that there would be quarterly EXCOM 
meetings, and you ``insisted that management processes must be 
made more transparent and auditable and strengthened at all 
levels.'' Has the Executive Committee reverted to their old 
habits?
    Vice Admiral Lautenbacher. No, we have not. There has been 
significant changes made in the process as a result of the 
Nunn-McCurdy review and the steps that we actually took before 
the Nunn-McCurdy review began. I am happy to go through--we 
have agreed and we have bent schedules and made sure that we 
have had quarterly meetings, whether we needed one or not. They 
are auditable, they are trackable, and I am happy to provide 
the record of all the decisions that were made. There have been 
nine EXCOMs since that particular meeting. There have been over 
40 decisions made to ensure this program stays on track in a 
timely and meaningful manner. There have been dozens of phone 
calls and personal interactions to deal with this. This is a 
program that in my experience in 40 years of working in the 
Navy and seven years, I have never seen this level of detail 
and involvement at the agency-head level in the individual 
management of a program that is taking place in NPOESS. So this 
is providing--we have provided a baseline for continual 
dialogue. It still is a difficult program to manage because of 
the three agencies. You mentioned the culture before. But I 
want to iterate that the issue with this program is not 
necessarily the management structure at this point, it is 
contractor performance on a particular instrument called VIIRS, 
and that is where we are focusing our attention and that is the 
issue that needs to be solved to make this program come around 
and be on schedule and meet the needs. And we are focused 
intently on getting that system in place.
    Chairman Lampson. Do you agree with that, Mr. Powner, that 
that is the primary or the single----
    Mr. Powner. I agree that the performance of VIIRS is the 
largest question mark on this program. However, the threat to 
withholding funding with these documents not being signed is a 
big issue. If in fact funds are withheld for fiscal year 2009, 
it has a devastating affect because of the matching that needs 
to occur with the NOAA funding portion. So I agree that VIIRS 
is the number one problem in contractor performance, but now 
that we got this new wrinkle with DOD throwing in the threat to 
withhold funding, this is a big deal.
    Chairman Lampson. Okay. My time is up in just a few 
seconds, so I am going to hold my question for a minute, and I 
will now recognize the Ranking Member, Mr. Inglis for five 
minutes.

                          Continuity Concerns

    Mr. Inglis. Thank you, Mr. Chairman. A couple of key 
questions. I suppose one is cost which you have been 
discussing. The other is continuity, and Admiral, you are 
confident that we have got continuity in spite of this delay, 
is that correct?
    Vice Admiral Lautenbacher. Yes, I am confident we have the 
continuity. There has been a delay in NPP, but the systems that 
are in place today, and the N-Prime satellite which has not 
been launched yet, which will be launched after next year, will 
last long enough to cover the gap. There has been no effect on 
the C-1 launch. So the satellites that we have to launch to 
have available for coverage are sufficient to cover the time 
until the C-1 instruments are launched in 2013.
    Mr. Inglis. At some point we start getting, if we try to 
cross this intersection, we get to a yellow light and in 
squeezing the orange here at some point we are going to get the 
red light. So when is the--we are still safely--it is a green 
light, is that right? We are not even in the yellow yet?
    Vice Admiral Lautenbacher. We are still safely in the green 
light given the Nunn-McCurdy review that we had. Remember, we 
had to delay the program because of the initial manufacturing 
problems with the VIIRS instruments. This instrument has 
experienced problems across the whole, and let me say that 
versus what the EXCOM has been doing, that I have been 
personally on this VIIRS issue since I took over this job and 
have been beating up on the contractors and the program office 
to deal with VIIRS. So it is not an unknown problem to the 
EXCOM, and the EXCOM has been involved in working on trying to 
resolve problems with VIIRS for a long, long time. So it is not 
an issue that there is absentee management from a government 
perspective on the issue.
    But given that statement, the change in the delay of NPP 
will not affect the continuity of our system at this point. 
There is sufficient overlap of the satellites that we have in 
orbit and stocked up to continue our coverage as we have today.
    Mr. Inglis. Mr. Powner, does GAO agree as we approach this 
continuity intersection, the light is still green, we are not 
running the yellow yet or----
    Mr. Powner. Yeah, we would agree with that. I think the key 
deadlines of NPP now is a June 2010 date, and then C-1 is 
January 2013. If those start to slip, then it is another story 
and there is a new ball game here.
    The other thing, too, is if NPP would slip--that was a 
demonstration satellite that we were to learn and incorporate 
that into further builds. So if that would happen to slip, you 
lose that opportunity to incorporate those lessons learned.
    Mr. Inglis. So this is good news in that we are--it is a 
very important project that is going to provide important data 
for military and civilian purposes. So we have got continuity 
covered, and that is good.
    How about--it seems a little bit funny for DOD to--maybe a 
good defense is a good offense--no, a good offense is a good 
defense I guess is what it is. Maybe what they are trying to do 
is just--if they have the documents and they are not working, 
not moving them, then what is the deal on that? Anybody got an 
observation about why they are being critical even though they 
may be holding the documents?
    Vice Admiral Lautenbacher. If I could respond for a minute, 
I have been very vocal,k publicly and privately, about the need 
to get these documents done. And I expressed to DOD that I 
would like some help in getting these things signed because 
many of the issues that need to be resolved are at offices that 
are above my pay grade. And so this is one of the results of 
that; these kinds--I don't want to call it a threat but I am 
hoping there is enough attention. I do not believe this is an 
EXCOM issue directly, although we are responsible for it and I 
am going to work this until the last ``i'' is dotted and ``t'' 
is crossed on it. But we are not lacking from the EXCOM 
perspective in trying to press the system to sign off on these 
documents.
    And I would tell you that the progress that we have made, 
what is left to deal with on these documents is not critical to 
making progress on this program. I can go through each one of 
these documents and explain that to you if you wish at this 
point. But we have created--16 of these documents, are signed, 
delivered, and working. We have a full schedule, we have a 
contract signed, we have monitors in progress, we have earned 
value, we have all of the pieces that we need to make progress 
day-to-day on this program and meet schedules. What is left are 
important documents. They need to be signed, and I don't 
disagree with that; and I am going to work extremely hard to 
try to make this deadline, and I am pleased that Mr. Young is 
interested in making a deadline, too. I called their office 
this morning to make sure they were on-board with this, and 
that is the word I got back. So I hope with this incentive 
there would be more pressure to move the final wording, and 
there are only a few small points that are left from these 
documents to deal with.
    Mr. Inglis. My time has expired. Thank you, Mr. Chairman.
    Chairman Lampson. Thank you, Mr. Inglis. And I recognize 
Mr. McNerney for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. Admiral, one of the 
things that you said that really stuck me was that you have 
never seen agency-head involvement at this level of detail. 
Now, my experience in industry is when management gets involved 
in the details, it has a tendency to make things worse, and I 
certainly think there is an opportunity for that here. What is 
your opinion on that?
    Vice Admiral Lautenbacher. I think that is a good 
observation, and I have tried to be careful to do this in a way 
to not undercut the expertise and the value of the people put 
in place to make the decisions at the right level. I have been 
involved in this business for a long time, too. I came to 
Washington in 1971, I have been an independent cost estimator, 
I have run programs, I have been a budgeteer, I have looked at 
management oversight over a wide variety of programs in the 
Navy, and I am very sensitive to the comment that you just 
made. When I say being involved, what I am talking about is 
being briefed and being cognizant of it, making sure that as we 
make decisions we know as much in depth as possible in the time 
allotted to do it. I have not tried to interfere. I can't speak 
for my contemporaries, but I have not tried to interfere in 
micro-management that I believe would be counterproductive to 
the smooth operation of the program.
    Mr. McNerney. Well, you just said you weren't involved in 
micro-management, but does the progress with the documents, is 
that also taking place at the highest levels----
    Vice Admiral Lautenbacher. It is.
    Mr. McNerney.--of the agency?
    Vice Admiral Lautenbacher. It is. Well, first of all, I 
brief the Deputy Secretary of Commerce every week on the full 
status of this program, including the documents. I also have, 
internal to my organization, the Program Management Council, 
with my Chief Operating Officer, that goes through the status 
at least monthly. I go through a monthly full up-status with my 
staff on what is going on. So I understand what is happening, 
and I push people when they need to be pushed and I try to keep 
this working. Otherwise, we wouldn't have gotten the 16 of the 
22 signed that we have or be as close as we are on the last 
six.

                            The VIIRS Sensor

    Mr. McNerney. Thank you. As a scientist, I want to ask a 
little bit about the VIIRS sensor, but I am afraid I am going 
to run out of time before you could give me a good explanation 
of that. You mentioned that you got a call last night that 
indicated that that was going to be deliverable on time now.
    Vice Admiral Lautenbacher. Yes, sir.
    Mr. McNerney. How confident are you of that result, of that 
information?
    Vice Admiral Lautenbacher. As with all information that 
comes in without sufficient time to sit on it and to look at it 
and examine it, I always reserve the right to make sure that it 
is correct. We have asked for a full court press obviously in 
this particular issue because I view it as a serious one to 
look at what needs to be done to ensure that the fasteners are 
correctly in place and will maintain the integrity during the 
testing phase which is where we are now. A full court press was 
put on, day and night, looking--we sent our own people out 
there as well as--when I say, government people as well as the 
manufacturer's people, to look at it, and this is the report. 
We asked them to do it as quickly as possible because we 
reported to the Committee and I wanted to have an answer today 
for you on where we stand on that, sir.
    Mr. McNerney. Mr. Powner, do you share his level of 
confidence with regard to the delivery of that sensor?
    Mr. Powner. This is new information for us in terms of with 
the latest problem. The concern with VIIRS is this: every time 
you turn around and look at VIIRS, there is another 
manufacturing or technical problem, and there has been a 
history of that. So I think we are far from being out of the 
woods on VIIRS, and it still is the number one concern on this 
program.
    Mr. McNerney. Thank you. I yield back.
    Chairman Lampson. Thank you, Mr. McNerney. Dr. Bartlett, 
you are recognized for five minutes.

                   The Gap Between Satellite Launches

    Mr. Bartlett. Thank you very much. A couple of years ago, 
Admiral, when we had an oversight Subcommittee hearing on this 
issue, there was some major concern that the delays in 
launching these satellites were going to result in a lapse of 
coverage. What has happened to fill that gap?
    Vice Admiral Lautenbacher. Obviously we have come down the 
road more than two years now. The satellite launches that we 
have scheduled for continuity have worked basically, so we have 
two years more of experience that we have satellites in orbit 
that are operating and providing us the information. So we have 
more confidence because we actually have hardware in the air 
that is functioning. So issues that could have caused an 
absence of information coming from space have been covered by 
the fact that we have been successful in the program that we 
predicted we would be able to execute two years ago.
    Mr. Bartlett. There are two general reasons for the delays 
here. One is the coordination difficulties with this tri-
agency. The other is that we have done here what we so often do 
in DOD and that is that we push the envelope, and we never come 
to the point that says this is good enough. We have really 
pretty good weather data that has been coming in now for a 
number of years. Which of these has been the primary reason for 
the problems here? Has it been the difficulties coordinating 
three very different agencies or has it been that we just were 
too optimistic about what could be done with this technology?
    Vice Admiral Lautenbacher. I believe it is the latter, sir. 
I believe that we have been optimistic about the technology. 
The VIIRS instrument, for instance, was supposed to be modeled 
after the MODIS\8\ instrument, which was an R&D instrument that 
has been working in space as an R&D instrument, not as an 
operational instrument. And people felt that, well, if we did 
this much with MODIS, we could do this much with VIIRS; and we 
already sort of built MODIS, so let us build a bigger VIIRS. It 
hasn't been tested, so it is a new instrument and it is having 
the same issues that we always have when we try to develop 
something new. I have been a proponent of doing more testing 
and incremental approaches to our capability to ensure that we 
have continuity, and I think that is why we are where we are. 
That is one of the prime reasons we are where we are.
---------------------------------------------------------------------------
    \8\ Moderate Resolution Imaging Spectroradiometer
---------------------------------------------------------------------------
    Mr. Bartlett. It is axiomatic, I think, that industry is 
going to be perhaps overly optimistic about what they can do 
because they are in the mode of selling, and they are going to 
win if they promise more. And frequently they promise more than 
can be realistically delivered. I worked for five years for an 
agency in the Navy that was kind of an honest broker. That was 
at the Johns Hopkins University Applied Physics Lab, and that 
lab never competes with industry so industries share their 
deepest proprietary secrets. But what the lab does is to tell 
the Navy, now more broadly the military and NASA, this is 
probably going to work, this is probably not going to work.
    For programs like this, who do we have to turn to ask them, 
is it realistic to expect that industry really can do what they 
promised to do?
    Vice Admiral Lautenbacher. We have the ability to go to a 
number of the FFRDCs\9\ or independent--we go--John Hopkins is 
obviously a place where we can go, and we have used John 
Hopkins to help NOAA. I won't speak for the other agencies that 
are involved here. And we also use the Aerospace Corporation. 
We use Noblis company to deal with some of these issues. NOAA 
uses independent advice to look at the feasibility of moving it 
into the future. Now, I want to say your question is a very 
important one. With one of the issues that the decisions that 
were made was to delay what is called the CMIS\10\ or the 
MIS\11\ instrument because we believe it was exactly the same 
problem we would have with VIIRS. So we delayed that 
instrument. What we are doing with that instrument--so we 
revised the specs on it. We are engaging--we had competition, 
if you want to call it that, with FFRDCs to give us the best 
proposal to design something that would work, based on 
technology that has already been proven, and the Naval Research 
Laboratory--NRL--is now building a prototype for us which will 
transfer the technology to an industry partner to build it with 
hopefully a lot less risk and more assurity that when that 
instrument goes on C-2, it will work and it will be within cost 
and schedule. So I think your comments are very pertinent.
---------------------------------------------------------------------------
    \9\ Federally-Funded Research and Development Centers
    \10\ Conical-Scanning Microwave Imager and Sounder
    \11\ Microwave Imager/Sounder
---------------------------------------------------------------------------
    Mr. Bartlett. Thank you. Thank you, Mr. Chairman.

             More on the Executive Committee's Performance

    Chairman Lampson. Thank you, Dr. Bartlett. The Chair will 
recognize himself for the next five minutes.
    Admiral, the Committee appreciates receiving the 
presentation on the alternative management study which your 
staff was kind enough to send us last night at 10:24. I note 
that the team convened to evaluate changes said this, ``EXCOM 
is too senior to provide the routine immediate assistance often 
needed at this stage of a program.'' That seems to say that 
EXCOM isn't adding any value to the NPOESS management. Can you 
comment on that, please? Would you agree?
    Vice Admiral Lautenbacher. Could you read--I am not sure. I 
would have to get the context of that. Obviously, there are 
many things that we probably--as brought up in the previous 
questioning about micro-management and various things. What is 
the particular reference there because I think we are--we 
should play in the alternative management study in terms of the 
strategies that are used for the future. I want to make sure I 
understand what you are----
    Chairman Lampson. It is in a chart----
    Vice Admiral Lautenbacher. Okay.
    Chairman Lampson.--talking about the existing program 
structure.
    Vice Admiral Lautenbacher. And it says?
    Chairman Lampson. EXCOM is too senior to provide the 
routine immediate assistance often needed at this stage of the 
program.
    Vice Admiral Lautenbacher. And I would have to look at the 
chart. Let me discuss the philosophy and what is involved with 
that and what is involved with the EXCOM.
    First of all, EXCOM sounds like it is a bad title from an 
old science fiction movie. It is not some magic deal, it is 
just the agency heads. So it is the agency heads that are 
responsible for these programs.
    Chairman Lampson. But it is those people who are supposed 
to make the management decisions to move this thing forward.
    Vice Admiral Lautenbacher. Yes, it is, and at that level. 
So there is always an issue of what--and in fact, when we have 
had this issue of where the acquisition authority milestone 
ought to be in the Department of Commerce, it would be with the 
Secretary. Our independent review said, it probably should not 
be with the Secretary because he does not have the time or the 
ability to be able to deal at the levels needed to add value to 
that. So it should be at a lower level, and it came down. It 
was at my level that it was put.
    So there are always questions as to what levels decisions 
should be made. We have tried to balance the decisions with the 
information that comes up, and you have to be careful not to 
micro-manage areas where you may not have enough information to 
be able to do it. So in this particular one, I have to go back 
and look at this chart to be sure. I am not sure what this 
chart is exactly trying to imply.
    Chairman Lampson. Well, I would imagine that something 
wouldn't make it to this committee unless the lower level 
needed the help of that decision and couldn't go forward----
    Vice Admiral Lautenbacher. Right.
    Chairman Lampson.--in the event that it didn't have it. I 
would hope that they would be asking those things that they 
most critically need of the EXCOM and be able to move forward 
from there.

                     Acquisition Document Approval

    You testified that gaining concurrence on the NPOESS 
acquisition documents has been challenging to coordinate 
through a tri-agency process. What precisely are the areas of 
disagreement that have stretched this process out for more than 
a year?
    Vice Admiral Lautenbacher. You have to walk a mile in my 
moccasins before you can really understand this, and it is hard 
to say, ``Well, why isn't this done?''
    There are a number of offices in each bureaucracy that deal 
with this. So there are at least five big bureaucracies. There 
is the Department of Commerce, above my pay grade, the 
Department of Defense above the pay grade--above the Air Force. 
Then there is the Department of the Air Force. Those are big 
departments. They have their own lawyers, they have their own 
acquisition program management structures, they have their own 
connections with the operating forces--Space Command--that 
comes in and kibitzes on each one of these. Their comments come 
up and down these various levels, then they come across to us 
to see if we agree. We turn around as quickly as we can and get 
them back over there. So by the time you work this process----
    Chairman Lampson. Let me interrupt. I have got less than a 
minute left.
    Vice Admiral Lautenbacher. Yes, sir.
    Chairman Lampson. Talk about some--you said you have the 
documents that show some of those differences.
    Vice Admiral Lautenbacher. Yes.
    Chairman Lampson. Tell us what----
    Vice Admiral Lautenbacher. Let me tell you where we are. 
First of all, as I have said before, these documents that are 
not signed with the ``i's'' dotted and ``t's'' crossed yet are 
not holding up progress on this program, are not affecting our 
ability to manage it and create the progress that we need.
    Chairman Lampson. Okay, but give me an example of something 
that is.
    Vice Admiral Lautenbacher. Okay. I'm sorry, say again?
    Chairman Lampson. An example of something that is.
    Vice Admiral Lautenbacher. I don't have any examples on 
this list that are. The seven--and if you count the alternative 
management study, I have already explained that we are doing an 
alternative management study and that is a decision to be made 
in 2010.
    Chairman Lampson. What is the disagreement then in the 
Memorandum of Agreement?
    Vice Admiral Lautenbacher. Okay. In the Memorandum of 
Agreement? In the Memorandum of Agreement, it is about trying 
to define the authority of the Acquisition Executive in DOD. 
DOD is the acquisition authority. We work under their contract 
rules. And this is an internal DOD issue to line up the ``i's'' 
and ``t's'' to make sure the lawyers--this is being massaged by 
lawyers at this point--to ensure that the wording is exactly 
correct. Now, I want to point out that the Memorandum of 
Agreement--there is a Memorandum of Agreement in place and we 
are working under it. We worked under it for the Nunn-McCurdy, 
and it is effective. And we follow all the rules, and we are 
trying to make a couple of changes to it.
    Chairman Lampson. Okay. Does it need to be changed because 
of Nunn-McCurdy?
    Vice Admiral Lautenbacher. It does. It does need----
    Chairman Lampson. But when will it be?
    Vice Admiral Lautenbacher. I have to defer to the 
Department of Defense on that. We are under the gun to do this 
by the end of August. I am going to do everything I can to have 
them get this finished.
    Chairman Lampson. Okay. You can't force them to do it.
    Vice Admiral Lautenbacher. I can't force----
    Chairman Lampson. What does it take to make them do it? Do 
we have to take action?
    Vice Admiral Lautenbacher. I certainly hope not. I 
certainly hope that there is enough----
    Chairman Lampson. Okay. The award fee plan is awaiting the 
Commerce Department decision. What is the problem with that?
    Vice Admiral Lautenbacher. It is the Fee Management Plan. 
First of all, award fees are done, taken care of. The Fee 
Management Plan--there is one concern left from NASA, and their 
concern is to talk about the specific issues on on-orbit 
performance, something way down the road. The Fee Management 
Plan--we have put in place a much stronger fee management plan. 
It has been agreed to in the contract, agreed to by--this was, 
remember, a complaint that we got several years ago that you 
are not pushing the contractor enough. So remember, that has 
totally changed, agreed to, and is in operation today. So that 
is not an issue. So the Fee Management Plan on which we are 
operating and forcing control by the contractor is in place. 
This is about something that is in the future. We expect this 
to be done very shortly. In fact, the word I have this morning, 
like the technical issue that I mentioned, is that the concerns 
are done and this is ready to be signed. It will be signed 
today or tomorrow. I was hoping it would be signed before we 
got here, but it is just about done.
    Chairman Lampson. Okay. Let me pass another round to Mr. 
Inglis.
    Mr. Inglis. Thank you, Mr. Chairman. Mr. Powner, do you 
agree with the Admiral that the documents are not likely to--
the lack of the documents being signed is not holding us up at 
this point?
    Mr. Powner. Well, clearly, I think there are some items in 
those documents that are important, but what we know, a lot of 
these are minor issues. This is bureaucracy at its worst. I 
mean, these are things that need to get signed and especially 
now that there is a threat to future funding of the program. 
These are items that we need. One other thing with the EXCOM. 
If we have a bureaucratic process, the executives are put in 
place to work through the bureaucracy and to get things done. 
That is what executives do, whether it is below you, above you, 
or at your level. And so again, I just want to reiterate that I 
think the executives need to step up and ensure that these key 
documents get signed.
    Mr. Inglis. I am trying to figure out why the DOD would 
threaten to withdraw or threaten to not meet the payment 
schedule or withdraw funding. They have as much interest in 
this as NOAA does, right? And if they are in fact holding the 
documents, I am still mystified by that.
    Mr. Powner. That circular argument is perplexing, although 
I will add if you look back on the history of the NPOESS 
program, there are times when some of DOD's actions, and I 
mentioned this in my oral statement, where we questioned their 
commitment to the program. If you go back historically, they 
didn't fund the program fully at one point in time, and I think 
this is another action that just raises a red flag about their 
commitment to the program.
    Mr. Inglis. Why would that be? That is a helpful thing to 
know. They are thinking they don't--maybe this isn't their 
number one priority or what is your guess on that?
    Mr. Powner. Well, weather is clearly important to the 
Department of Defense in many areas. Clearly there probably are 
other priorities, and right now they have legacy systems that 
provide the information they need.
    Mr. Inglis. Do they think that the things that we are 
adding to this, the complexities, the additional sensor, all 
these kind of things, are beyond what their needs are and they 
are sort of muscling their way to say, well, we really don't 
want that anyway?
    Mr. Powner. I think you will get different stories from 
DOD. In fact, we talked to many of the user groups who 
represent the Department of Defense, and they are clamoring for 
some of the information that will come out of the NPOESS 
program.
    Mr. Inglis. Admiral Lautenbacher, do you have any theories 
on that?
    Vice Admiral Lautenbacher. Yes, and this is speculation. As 
I said, I talked to Mr. Young's assistant this morning, and 
there is concurrence that the documents--that they are 
interested in signing the documents and they are interested in 
helping us sign the documents and they are going to work hard. 
We are going to work together to try to make this happen. So 
that is why I am hoping the Committee does not have to step in, 
that we can finish this ourselves.
    I think--there are two things going on. First of all, and 
again, having worked in DOD for a number of--in services; I did 
work in DOD as well at one point. Mr. Young is relatively new 
in his position. He has a portfolio that has significant issues 
with it, as Dr. Bartlett mentioned, and he is trying to get 
control and hold of this monster that is the DOD establishment 
and put some discipline and authority in it. And so he is, you 
know, putting some markers on the table that we are going to do 
this right. We are going to manage by the book, we are going to 
provide the right documentation, and we are going to--and I 
couldn't agree with him more. I agree with that. We need to do 
it, and I am just as concerned as he is, and I have seen this 
before in the Department of Defense because it is hard to 
coordinate documents within the Department of Defense, let 
alone with DOC and DOD and NASA where people have threatened to 
cut off the money because you didn't finish paperwork. And I 
don't want to say this is idle paperwork, but you know what I 
mean, you didn't finish the job as designed in order to provide 
the baseline information for a program. So it is not an unusual 
tactic inside the Department of Defense to sort of enforce, you 
know, the need to do the job on time and do it well. And I 
think we are seeing some of that.
    Mr. Inglis. Thank you, Admiral. Thank you, Mr. Chairman.
    Chairman Lampson. Dr. Bartlett, you are recognized for five 
minutes.

                          Bureaucratic Delays

    Mr. Bartlett. Thank you very much. I think there are 
probably three basic reasons for bureaucratic delays, and I 
would like each of you to respond to this. One reason is that 
they just are incompetent. The second reason is that there is 
too much for them to do. They just can't get it done. The third 
reason is that there is not enough for them to do which always 
results in delays. Dr. Parkinson has noted that work expands to 
fill the time available for its completion. As a matter of 
fact, it may grow even larger because if you are a bureaucrat 
and there is really not enough for you to do, you make sure 
that it appears that you have too much to do by letting things 
pile up on your desk. I noted that in our local county where 
building is way down, and now it takes twice as long to get a 
building permit through as it did when we were booming.
    Which of these three is the reason for the bureaucratic 
delays in this program?
    Mr. Powner. I would clearly go with number two and the lack 
of this being a priority, too much and how it competes with 
other priorities.
    Vice Admiral Lautenbacher. I agree with that, but I would 
also say that I don't know enough about each one of the many, 
many offices that this goes through. I know about ours, and I 
would--the ones I know about it, I generally agree it is too 
much to do, and I would make the point that most of this 
documentation--and I have watched over 40 years--I have watched 
the documentation grow and grow and grow and grow because 
requirements have been added because somebody made a mistake 
somewhere, and you got to make sure they are never going to 
make that mistake again. So you put a requirement and a 
document or a new document, and it grows and grows and grows. 
And we are victims to that process. Now, I am not here to say 
that these documents are not necessary, but in fact, work has 
expanded and there is an awful lot to do at this point to 
ensure that every ``i'' is dotted and ``t'' is crossed.
    Mr. Bartlett. Dr. Parkinson also made another very 
interesting observation and that was that the larger an 
organization gets and with these three agencies, you are 
dealing with a lot of people, but the larger an organization 
gets, the more energy is spent in internal communications; and 
pretty soon at some point all the energy is expended in 
internal communications and nothing gets done.
    And Admiral, your last comment seemed to indicate that 
there is a bit of that going on.
    Vice Admiral Lautenbacher. Yes, but we have made a great 
deal of progress on these documents after going through a 
lengthy review. The human mind is a very ingenious animal and 
does things--humans do things that--what happens in this system 
is that when you get to the point where you are totally 
absorbed in self-communications, we start load shedding 
basically; and you find offices that are off to the side that 
don't get into the game anymore because most responsible people 
who take on tasks know they have to complete the task and they 
figure out some way to do it. And if that requires bypassing 
the bureaucracy, creating new processes that minimize their 
effect on it, it happens. And so I believe there is a continual 
cycle here of trying to get ahead of the problem but more 
requirements keep getting piled on. And we are in that battle 
day by day.
    Mr. Bartlett. It is always true, I think, that what is 
everybody's business is nobody's business, and I think one of 
the problems of this program is that there are too darned many 
people responsible for it. Why don't we have just one person 
responsible for it who makes the decision? He either lives or 
dies on the basis of those decisions? When you have a big 
bureaucracy, everybody has tried to protect themselves so that 
they can't be faulted for a failure. What can we do to get 
around this bureaucracy so that one person makes the decisions? 
Committees shouldn't be making decisions, people should be 
making decisions so that we can get the job done.
    Vice Admiral Lautenbacher. I agree having now had to work 
with the system for a number of years, it is cumbersome. It is 
the first time we have tried to do a program like this with 
three large agencies with three different sets of requirements, 
three different sets of acquisition rules, three different sets 
of administrative documentation, et cetera. I think that there 
are things that we could do to make the structure more 
streamlined, and my intention is to try to include that in this 
alternative management study that we are talking about because 
this is not a good way to do business over the long-term. And 
as I said before, human beings are ingenious. We will work out 
ways to improve this. So that is my intention at this point 
anyway.

                 More on Acquisition Document Approval

    Chairman Lampson. Thank you, Dr. Bartlett. That is 
something we may have to keep in mind and make sure we learn a 
lesson because something is going to be coming after this. We 
may not want to do this again in the manner in which it has 
been done.
    We were talking about some of the decisions that were 
pending, and you had made a comment about NASA, waiting on 
NASA, when we talked about the Award Fee Plan and Fee 
Management Plan.
    Vice Admiral Lautenbacher. Yes.
    Chairman Lampson. The report that we have got indicates 
that NASA was completed with its decision on June 4th, that we 
were ready with the Commerce Department concurrence. So what 
does that leave?
    Vice Admiral Lautenbacher. Yes, and we have word that they 
have completed it, but that was after it was sitting there for 
three or four months. So it is good to say it is out today, but 
you have to look at the whole history of this thing. And as I 
indicated, I believe that will be signed today or tomorrow. We 
have completed the Fee Management Plan.
    Chairman Lampson. Money is truly--time is money, and we are 
looking at a lot of money. The Acquisition Program Baseline, it 
is waiting for DOD, DOC determination, APB budget numbers?
    Vice Admiral Lautenbacher. Yes, and we want to make sure 
because this is a document that will be fundamental to the 
budget. Remember, we ask due diligence. The Executive Committee 
asked that we re-evaluate the operations and support costs 
because the operations and support costs was carried forward 
from 2002. None of us believe that is accurate. We ask that 
that be redone because I don't want to have to come up and 
answer to the Committee why we didn't do that so that we have 
an independent cost estimate, we have a program estimate now 
because we created the ability to be able to do that in our 
program so that we can provide the program cost estimates 
because we want to lay that into the Acquisition Program 
Baseline. Right now we have the people that did those budgets 
reconciling them. It is going to come back to the EXCOM to 
review and lay it in, and that is the last piece of this deal. 
It is basically the operations and support costs that we talked 
about and potentially the need for more reserve on VIIRS, 
although that is not clear at this point because we have been 
able to manage around the issues on VIIRS with the estimate 
that we had created from the Nunn-McCurdy. Remember, we have 
gone three years now with the budgets and the schedule that we 
have laid in because of our intention to make sure there was 
enough reserve to be able to handle issues like this that have 
come up.
    Chairman Lampson. Mr. Powner, would you comment on--give me 
your feeling of the relationship between the earned value 
management system and the baseline management program, baseline 
program?
    Mr. Powner. Well, that is one area where we have had 
previous recommendations in this area, and I think the Admiral 
made some comments about how they get very detailed data. One 
of the things that has been very valuable on this program is 
when there is a cost increase or a slip in schedule, folks know 
about it through the use of earned value techniques; and they 
know about it at very high levels. I know the Admiral made a 
comment to me at one time that he can hear a pin drop on this 
program. Well, that is good because we want to be all over 
those costs and schedule issues. Now, we have a number of them 
that are coming up here, and we talked about this $1 to $1.5 
billion cost increase. We just need to disclose that fully and 
move forward with an accurate baseline from this point forward.

                            Life Cycle Costs

    Chairman Lampson. Okay. Let us shift gears. Admiral, 
General Mashiko was asked if she was confident that the NPOESS 
program would be executed for the estimated $12.5 billion in 
life cycle costs for the program that emerged from Nunn-
McCurdy. She said that she couldn't be definite while 
negotiations with Northrop Grumman were occurring to implement 
the new plan but that she felt that it was the right number. 
Given what you know now, what is the life cycle cost?
    Vice Admiral Lautenbacher. I think the life cycle cost will 
have more operating costs at the end, so it is going to be 
larger than $12.5. I think it is likely to be somewhere between 
$12.5 and perhaps $13.5, in that region. But we are I think 
very close to where we need to be on this at this point in 
terms of--I am not going to sit here and guarantee that 
everything is going to work perfectly for every nickel that is 
scheduled for the next 26 years--is what we are talking about 
here--or the next 20 years or so.
    Chairman Lampson. Mr. Powner, you have seen data on the 
life cycle cost. You briefed our staff that it appears there 
will be an increase of $1.1 billion in the estimate. What 
accounts for that number?
    Mr. Powner. Yeah, I think at least we will see a $1.1 
billion increase. That is roughly $300 million to address the 
technical issues with the sensors and $800 million associated 
with additional operations and support, but I will add to that 
that there is a potential for increased security costs; and 
that range could also be in the hundreds of millions of 
dollars. We are probably more in the camp that the life cycle 
cost is going to be closer to $14 billion.
    Chairman Lampson. Okay. If I add up the lower-end ranges 
that you just gave us, $1.2 billion in cost growth. If I add 
the high ends of the ranges you get $1.8. So it is already 
higher than last week. Where are you getting those numbers and 
how much confidence do you have in them at this point?
    Mr. Powner. We got those rough ranges from the program 
office. So you know, I think in our official statement we said 
at least a billion, but, again, I think we will be probably 
closer to $1.5.
    One other point, too, with the security issues that have 
been raised, we have taken a long time to make a decision on 
what our security approach is for the ground stations. The 
longer we sit on that, the likelihood that the costs are going 
to be going up; and that reason for that is when you build 
security in late in the development cycle, it is always more 
than if you build it in early. So that is a concern going 
forward.
    Chairman Lampson. Should any of these additional costs not 
be included in the final program baseline? For example, if we 
incorporate the cost for VIIRS recovery into the baseline, 
doesn't that give future managers a false impression of the 
program's cost and schedule performance?
    Mr. Powner. Well, I think the VIIRS issues need to be 
addressed and we need to build those into the program. And I 
think from a security perspective, to the program's credit, 
they are looking at options to keep costs down, so that is a 
good thing.
    Chairman Lampson. Are we ever going to get to a point where 
we really won't see any hefty jumps in the program cost 
estimates every year, year after year? Both of you.
    Mr. Powner. Hopefully, there will be greater stability once 
NPP flies and we start looking at the performance with the 
operational bird at that point in time. I think that is when 
there will be more stability.
    Vice Admiral Lautenbacher. I agree with that. We need to 
finish testing on the VIIRS system, and we need to launch NPP. 
At that point, I think we will be close to out of the woods on 
what the system will really cost.
    Chairman Lampson. My time is expired. Let me yield to the 
Ranking Member, Mr. Inglis.
    Mr. Inglis. For a brief question. I have got a corollary to 
the Bartlett theory of bureaucracy. Dr. Bartlett described 
one--the reasons for bureaucratic delay could be one, 
incompetence; two, too much work; and three, not enough work 
and the work expands to the time available. I think that a 
fourth possibility is that when you have a complex, difficult 
project that encounters a slowdown, it moves to the front 
corner of the desk. And that slowdown goes on for a week or 
two. It moves to the floor. And when that file hits the floor, 
there is an enormous amount of mental energy to bring it back 
up onto the desk.
    So I wonder if what we are learning here is that one agency 
should have owned this, and I guess the idea was to prevent 
three from launching satellites. So therefore, let us get some 
efficiencies, economies of scale by having just one. But I 
wonder if one should have owned it with two others being 
customers or tenants on that piece that is owned by the one. 
Either of you have thoughts about that?
    Vice Admiral Lautenbacher. That is a model that looks 
awfully good right now to me. I have to admit I was not in on 
the original discussions in the '90s. I was in the Navy at the 
time, and I didn't want the Navy anywhere near this. So we 
stayed out of it. But the discussions went on at high levels, 
and it was finally decided by the White House how to deal with 
setting up this program. So there was a lot of work that went 
into trying to think about this model. And I believe in the 
fewer complications and the executive authority where you 
really have the authority. The programs that I can manage and I 
will come and tell you about, we just got an excellent score on 
our tsunami warning program which is now a worldwide system 
which you supported. It was a program we started. It was graded 
by OMB as 93.4. It is only one of 11 percent of programs in the 
Federal Government that got the effective rating from our 
Office of Management and Budget. It is IOCed.\12\ The buoys are 
out around the world now providing 24/7 coverage for tsunami 
warning to the United States. That is a program I can control 
and put inside. So when you have an agency controlling, you 
have a much better chance for success on these things; and any 
time you bring in more agencies, you got a problem. I have no 
problem really with separation of responsibilities, having 
customers that come in with their needs and you make a decision 
and move on. As I said, I would like to look in the alternative 
management study. I will push that from my end of it to deal 
with is there some way to streamline the structure we have 
today so we don't get into this problem we have now of trying 
to update the MOA to make sure that DOD's executive authority 
is exactly prescribed correctly in accordance with what the 
lawyers will think it will work across a three-agency boundary. 
Thank you, sir.
---------------------------------------------------------------------------
    \12\ Initial Operational Capability
---------------------------------------------------------------------------
    Chairman Lampson. Mr. Bartlett, you are recognized for five 
minutes.
    Mr. Bartlett. Thank you very much. This program is typical 
of many of our programs in DOD. The costs just keep going up 
and up. When I repeat the Lord's Prayer and I come to that part 
that says lead us not into temptation, I wonder how we can 
enter into some of our contract agreements and still do that 
prayer because when you enter into a contract agreement where 
the more it costs, the more the contractor makes, we are doing 
something similar to what the chaplains at Ft. Leonard Wood 
said we were doing when we put young men and women in such 
close confines. What we were doing runs contrary to the powers 
of nature.
    Somehow we have got to get around this, and I think that 
pushing the envelope and not knowing definitively what can be 
done when you start the program is a major reason for this, but 
at the end of the day you say, gee, you really ought to get 15 
percent profit. And so the reality is that the worse they do, 
that is, the more it costs, the more they make. How do we get 
around that?
    Vice Admiral Lautenbacher. If you look at the Fee 
Management Plan for this program, it has been reduced down to 
12 or 13 percent. So they can't get any--we have already 
reduced it below that, and there is only two percent of that 
which can be, what I would say, judgmental. The rest of it is 
tied to meeting requirements on the Nunn-McCurdy revised 
schedule and performance. So they are under the gun, and they 
are being given their so-called reward based on the ability to 
perform. And in many areas, they have not been doing well, and 
in other areas, they have been doing well because I mentioned 
four of these instruments are on track. So it is a mixed 
blessing from the contractors' point of view.
    But what you bring to account is the idea of the cost plus 
contract which is an issue. And that is kind of a philosophical 
discussion. Do we save money on cost plus contracts, even if 
they go over, or would it be better to try to go fix price up 
front. When you try to do that for a development area where you 
really don't know what you are doing in terms of what you can 
develop, we have had a lot of trouble with that, too. So that 
is another part of the decision. I don't like the cost plus 
program, I certainly don't like them for NOAA because NOAA is 
an operational agency. I think the research should be done 
elsewhere, and when we get an instrument, we should just buy it 
and there should be a price and a contractor that produces it 
and we will execute it. We are a 24-by-7 operational agency. I 
don't like the idea of taking on development risk within the 
NOAA framework. We have other agencies that do that and where 
their strong point--what I believe is their strong point--and I 
have been a strong proponent of planning together across the 
agencies, develop space instruments versus the agencies that 
use them.
    So I think that is a critical need for us to work on as a 
government.
    Mr. Bartlett. For 16 years now I have been watching 
programs in DOD and almost never do we come in on time, on 
budget; and it would seem that we ought to learn a little from 
history and someone, maybe GAO, needs to take a look at this. 
And this is a long history. It precedes by many years, my short 
16 years of watching this process. How come we never get it 
right? This program is just typical of many of our programs, 
and you are not unique in the problems that you have.
    Thank you very much, Mr. Chairman.
    Chairman Lampson. You are welcome, and we are running a 
little bit out of time, close on our votes that we have, so I 
am going to be very quick. I have wanted to make a corrected 
statement that I made at the very, very beginning when I talked 
about the gentleman who received an award the other day with 
whom I had gone to college, and then you began talking about 
the tsunami program. Dr. Eddie Bernard--and I said Dr. Eddie 
Beaumont--I meant Dr. Eddie Bernard from Beaumont, Texas--
pardon my--getting ahead. My tongue got faster than my brain 
was working apparently, but Dr. Bernard is the Director of the 
Pacific Marine Environment Laboratory and has done significant 
work. And obviously, the role that he played in creating that 
tsunami warning system is something that we are all very, very 
proud of, proud to have known that I sat in some of the same 
classes with him. I just wish I had learned more along the way.
    Thank you all, both, for being here and the panel members 
for raising the questions that we have done today, and 
hopefully we will move this program forward because we know how 
critically important it is to our whole country and this Earth.
    So thank you for appearing before the Committee this 
morning, and under the rules of the Committee, the record will 
be held open for two weeks for Members to submit additional 
statements and any additional questions that they might have 
for the witnesses. This hearing is now adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by David A. Powner, Director, Information Technology 
        Management Issues, Government Accountability Office

Questions submitted by Representative Bob Inglis

Q1.  The Nunn-McCurdy certification decision reduced the number of 
instruments on the NPOESS satellite from thirteen to nine and reduced 
the functionality of four of the nine remaining sensors. The decision 
stated that these instruments could be remanifested if other parties 
funded them. The National Oceanic and Atmospheric Administration (NOAA) 
has announced that two of the sensors have since been added back to the 
configuration of the satellite and has expanded the capability of 
another instrument.

Q1a.  What was the point of going through the Nunn-McCurdy process, 
particularly with respect to reducing the number of instruments in 
order to lessen the risk of the mission, if the NOAA was going to put 
all these instruments back on?

A1a. According to the June 2006 decision, the program restructuring was 
intended to reduce the acquisition's complexity and risks while 
ensuring the continuity of existing satellite programs and data. The 
decision also allowed the program the flexibility to remanifest key 
instruments if they were funded outside the program and approved by the 
tri-agency Executive Committee guiding the NPOESS program.
    In January 2007, NOAA and the National Aeronautics and Space 
Administration (NASA) prioritized the capabilities of the instruments 
that were degraded or removed from the NPOESS program. The highest 
priorities included Earth radiation budget, solar irradiance, and 
improved ozone measurements. These measurements were expected to be 
provided by the Clouds and the Earth's Radiant Energy System (CERES) 
sensor, the Total Solar Irradiance Sensor (TSIS) sensor, and the limb 
component of the Ozone Mapper/Profiler Suite (OMPS), respectively.
    Given these priorities, the NPOESS Executive Committee decided to 
make two modifications to the NPOESS Preparatory Project (NPP) 
demonstration satellite--by adding a CERES sensor and restoring the 
full functionality of the OMPS sensor. In addition, the Executive 
Committee decided to add one sensor, TSIS, to the first NPOESS 
satellite. No changes were made to the three other satellites in the 
NPOESS program. NOAA officials reported that these modifications are 
being funded outside of the program and that TSIS will not be permitted 
to delay the NPOESS schedule. Specifically, the program office reported 
that TSIS will not be included on the satellite if it falls behind 
schedule.
    While restoring selected sensors and functionality to NPP and the 
first NPOESS satellite involves added risk, the program has attempted 
to mitigate these risks by selecting sensors and technologies that are 
well understood and maintaining the option to not include TSIS if it 
falls behind schedule. Further, program officials have decided not to 
reintroduce other sensors that were removed (including the Advanced 
Polarimetry Sensor or the Radar Altimeter) or to restore the functions 
of other sensors that were degraded (including the Conical-Scanned 
Microwave Imager/Sounder and Space Environment Sensor Suite) at this 
time.

Q1b.  Was there any other way to maintain the climate and environmental 
data short of restoring these instruments?

A1b. In our May 2008 report, we highlighted several short-term options 
for restoring selected climate sensors, including adding sensors back 
to a later NPOESS satellite, adding sensors to another planned 
satellite (such as Landsat--a joint NASA/U.S. Geological Survey 
mission), and developing a new satellite to include several of the 
sensors.\1\
---------------------------------------------------------------------------
    \1\ GAO, Environmental Satellites: Polar-orbiting Satellite 
Acquisition Faces Delays; Decisions Needed on Whether and How to Ensure 
Climate Data Continuity, GAO-08-518, (Washington, D.C.: May 16, 2008).
---------------------------------------------------------------------------
    In addition to short-term options, the Federal Government needs to 
consider long-term options. We reported that NASA, NOAA, and the 
Department of Defense (DOD) lacked plans for restoring sensor 
capabilities on a long-term basis. We recommended that the three 
agencies establish plans on whether and how to restore the climate and 
space sensors removed from the NPOESS program, in cases where the 
sensors are warranted and justified. This would include justifying the 
additional funding needed to develop these sensors within their 
respective agency's investment decision processes. The result of this 
planning will help determine the best and most cost effective way of 
maintaining relevant climate and space environment data records.

Q2.  In your testimony, you mentioned that there was a newly identified 
risk of changing security requirements.

Q2a.  Can you please explain the basis for the concern about these 
requirements?

A2a. As we noted in our testimony and in the accompanying report, 
changing security requirements late in a system's development can add 
cost and risk to the program.\2\ To date, NPOESS has been designed and 
developed to meet DOD's standards for a mission essential system. 
However, NOAA officials believe that the system should be built to meet 
more stringent standards--specifically to a high security level per 
Federal Information Processing Standards Publication 199. Implementing 
more stringent standards could cause rework and retesting, and 
potentially affect the cost and schedule of the system. Program 
officials are assessing options and expect to decide on security 
requirements by September 2008.
---------------------------------------------------------------------------
    \2\ GAO-08-899T and GAO-08-518.

Q2b.  You also mentioned there was a March 2008 study of the impacts 
and costs of adding additional security to NPOESS. Has GAO received a 
copy of this study? If not, when do you expect to see a copy and what 
---------------------------------------------------------------------------
were the reasons you were given for not releasing it to the GAO?

A2b. We received a summary of the March study in June 2008. This study 
identified the new requirements and contained rough estimates for 
implementing the various upgrades depending on when and how the various 
changes were made. The Chief Information Officer of the NOAA 
subcomponent the National Environmental Satellite, Data, and 
Information Service noted that the office is currently working with the 
NPOESS program office to outline the specific engineering solution for 
the requirements and anticipates a better cost estimate after that 
effort is completed--which is anticipated to be later this summer.

Q3.  There seems to be continuing problems with some of the sensors, in 
particular the Visible/Infrared Imager Radiometer Suite (VIIRS) 
instrument. In previous reports, GAO has characterized the risk as, in 
part, due to problems with contractor and oversight issues on the part 
of the NPOESS program management. Since we are still seeing problems 
with the sensors, even with the increased oversight by the government, 
what can be done to improve the performance of the contractor?

A3. In our May 2008 report, we noted that the program office had 
recently instituted biweekly senior-level management meetings to review 
progress on the status of the VIIRS instrument's development, and that 
program officials had stated that both the prime contractor and the 
program executive office will have senior officials on-site at the 
contractor's facility to provide extensive, day-to-day oversight of the 
prime contractor and subcontractor management activities to assist in 
resolving issues. This is in line with an independent study (called the 
Alternate Management Study) that recommended in June 2007 that the 
program office provide more systems engineering leadership for the 
program and intensify management and technical oversight over the prime 
contractor. More recently, the Defense Contract Management Agency and 
the prime contractor conducted reviews of the subcontractor responsible 
for VIIRS and recommended further management changes. Program officials 
reported that the subcontractor is working to implement these changes 
while the program office is overseeing these efforts. In our report, we 
stated that it is important for the program office, the Program 
Executive Office, and the Executive Committee to continue to provide 
close oversight of milestones and risks.

Q4.  One of the most significant problems I believe you raise in this 
report is the concern about the loss of sensor capability on satellites 
past the NPP and first NPOESS satellites due to a lack of planning. You 
state in your testimony that the agencies may lose ``windows of 
opportunity'' for selecting the most cost-effective options with 
regards to sensor acquisition.

Q4a.  Considering the ballooning cost of this program as it is, what 
was the agencies' response to this concern when you presented them with 
the draft report?

A4a. In written responses to our May report's recommendation, all three 
agencies agreed with the recommendation to develop long-term plans for 
whether and how to restore the climate and space environment sensors 
removed from the satellites. In addition, both the Department of 
Commerce and NASA reiterated that they are working with their partner 
agencies to finalize plans for restoring sensors to address the 
Nation's long-term needs for continuity of climate measurements.

Q4b.  How soon should such a plan be developed before the costs become 
prohibitive?

A4b. There are many options available for obtaining climate and space 
data continuity, such as including selected sensors on other NASA, 
European, or NPOESS satellites. However, as time goes by, selected 
options will no longer be viable because the window of opportunity for 
adding sensors to those satellites will close.
    While other satellite programs may have different requirements, 
NPOESS program officials stated that they need at least six years' 
notice in order to add sensors to their satellites. This means that 
agencies would need to identify their plans to add sensors to the 
second NPOESS satellite by January 2010.
    In responding to these questions, we relied on information we 
previously reported on NPOESS.\3\
---------------------------------------------------------------------------
    \3\ GAO-08-899T; GAO-08-518; GAO, Polar-orbiting Operational 
Environmental Satellites: Restructuring is Under Way, but Technical 
Challenges and Risks Remain,  GAO-07-498 (Washington, D.C.: April 27, 
2007).
---------------------------------------------------------------------------
                   Answers to Post-Hearing Questions
Responses by Vice Admiral Conrad C. Lautenbacher, Jr. (U.S. Navy, 
        Ret.), Under Secretary of Commerce for Oceans and Atmosphere; 
        Administrator, National Oceanic and Atmospheric Administration 
        (NOAA)

Questions submitted by Representative Bob Inglis

Q1.  You mention in your testimony that the NPOESS program uncovered 
some design flaws with the Visible/Infrared Imager Radiometer Suite, or 
VIIRS, specifically relating to fasteners and screws. This is not a 
highly technical part of this critical instrument.

Q1a.  How could an oversight of this kind occur?

A1a. There were two fastener related issues on the Visible/Infrared 
Imager Radiometer Suite (VIIRS): titanium bolt breakage and jackpost 
breakage. Titanium bolts have properties that require slow tightening 
during installation to prevent weakening of the part. Consequently, we 
are looking very closely at the processes undertaken by the VIIRS 
contractors, particularly those associated with installation and 
quality control. The bolt was taken from a new batch and that lot was 
sampled, inspected and tested without any issues noted. No other parts 
in the original batch displayed failure.
    The fasteners, called jackposts, are custom designed parts. The 
root cause of the jackpost failure is that the parts did not meet 
specifications as defined by the government. The part supplier was a 
trusted vendor to Raytheon and the parts were not subjected to the 
appropriate level of inspection by Raytheon upon delivery. The 
acceptance process for parts has been reviewed to ensure that a similar 
lapse will not occur again. Subsequent investigations by the NPOESS 
Program and contractors have revealed that the remaining jackposts on 
VIIRS are flight worthy and we only need to replace the 18 jackposts 
that broke.
    The NPOESS Integrated Program Office (IPO) and contractors are 
reviewing internal control processes to ensure that similar incidents 
do not happen again. The government is continuing its investigation of 
the processes and actions of the VIIRS contractors. The government is 
putting in place design and quality process changes to use standard 
parts as much as possible, and are instituting mandatory parts 
screening and inspection for all vendors.

Q1b.  Is there a process in place to prevent such oversights from 
occurring in the future so that minor parts of the instruments do not 
lead to major problems later on? What assurances do we have that these 
types of problems are not pervasive throughout the rest of the 
instruments?

A1b. We have put in place both design and quality process changes which 
include:

        1)  Using standard parts instead of custom parts wherever 
        possible during design; and

        2)  Mandatory screening and inspection on all incoming parts 
        regardless of vendor past performance.

    Specifically for VIIRS, the team is reviewing all custom parts and 
the associated spares to ensure no issues exist with other components 
on the sensor. To assure ourselves that the VIIRS issues are not 
systemic to this program, the NPOESS IPO tasked Northrop Grumman, the 
NPOESS prime contractor, to perform Mission Assurance audits of each of 
their subcontractors.
    The IPO continues to provide oversight of the NPOESS contractors to 
improve their adherence to program specifications and quality control 
of the manufacturing processes. The IPO, NOAA and the National 
Aeronautics and Space Administration (NASA) continue to work closely to 
ensure that there are clear lines of communication between the 
government and the contractors.

Q2.  The President's FY09 budget request includes $74 million for the 
development of the CERES (Clouds and Earth's Radiant Energy System) and 
TSIS (Total Solar Irradiance Sensor) instruments. These are two sensors 
that had been demanifested by the Nunn-McCurdy certification process 
and the money for their development can not come from the NPOESS 
program baseline.

Q2a.  Is this just an additional $74 million that NOAA and NASA are 
asking for? Or does this ask reduce available funds in other NOAA 
programs?

A2a. The $74 million for the Climate Sensors/Climate Data Records is an 
additional increase in funding for NOAA's satellite budget request. No 
other NOAA program funding was reduced to support this new initiative.

Q2b.  Has NOAA explored the possibility of putting these sensors on 
separate vehicles to maintain the integrity of the current launch 
schedule?

A2b. NOAA and NASA, in collaboration with the Office of Management and 
Budget and the Office of Science Technology Policy, assessed the 
processes and capabilities required to build these instruments and 
place them onto the appropriate and most cost-effective satellite. 
Careful consideration was given to cost, schedule, and technological 
maturity of the sensors, as well as the capability of the Federal 
Government and its contractors to successfully deliver the instruments. 
The assessment also included a review of available launches, the cost 
and feasibility of single mission satellite launches and the time 
required to launch these sensors to ensure uninterrupted continuity of 
the climate measurements.
    Based on the planned timing of the launches of the NPOESS 
Preparatory Project (NPP) and the first NPOESS satellite (C1), and the 
dates when the sensors are needed on orbit to ensure continuity of the 
climate record, the decision was made to place the Clouds and the 
Earth's Radiant Energy System (CERES) Flight Model (FM) #5 on NPP, and 
Total Solar Irradiance Sensor (TSIS) and CERES FM #6 instruments on C1.
    Full funding of the NPOESS-related budget requests in the 
appropriations bills for NOAA, the NASA, and the Air Force 
appropriations bills is required to ensure the climate sensors can be 
integrated and launched on the respective NPP and NPOESS satellites.

Q2c.  In the event that Congress does not pass an Appropriations bill 
for FY09, what will be the affect of a continuing resolution on the 
development of these sensors? How does that affect our ability to 
collect relevant climate data?

A2c. NOAA will be operating under a continuing resolution in FY2009 
until at least March 6, 2009, which will impact current acquisition and 
development activities. While the mitigations of the continuing 
resolution impacts are still being evaluated, the funding shortfall 
will slow initiation of GOES-R flight and ground efforts which could 
result in a launch delay and/or increased life cycle costs. The funding 
shortfall will also place the schedules for CERES and TSIS at high risk 
for meeting the January 2013 NPOESS C1 launch. Additional costs to 
CERES and TSIS could also be possible to accelerate deliveries or 
accommodate late deliveries if feasible.
    If the CERES FM6 and TSIS instruments are not available in time to 
be integrated onto NPOESS C1, the Nation's scientific community would 
be at high risk of a data gap for these critical global environmental 
measurements. Such a break in the climate record would introduce 
uncertainty and compromise climate information for decision-makers. In 
addition, the loss of these data would require many years of 
calibration to recover.

Q3.  The Nunn-McCurdy certification included $1 billion placeholder in 
the estimated life cycle cost for operations and support--essentially 
what is needed once the satellite is actually launched. This 
placeholder was originated in the 2002 Acquisition Program Baseline. 
GAO has informed us that as the launch date gets closer, this figure 
will go up by another $800 million, in part because it hadn't been 
updated since 2002.

Q3a.  Why is the additional $800 million needed if now there are only 
four satellites, whereas in 2002 there were six satellites to support 
and the program estimated only $1 billion for operations and support 
purposes?

A3a. The Nunn-McCurdy certification process of the NPOESS program only 
examined development and production costs, not operations and 
sustainment (O&S) costs. In fall 2007, following the completion of the 
program restructure after Nunn-McCurdy that scaled back the program 
from six to four satellites, the NPOESS program was directed to execute 
a complete program estimate including O&S costs given NOAA's concern 
that the program did not have a realistic estimate of those costs. 
Following the Program Office Estimate completed in December 2007, the 
EXCOM requested the Department of Defense's Cost Analysis Improvement 
Group (CAIG) complete an independent review of the total program costs 
to further validate the estimate of operations costs as well as the 
development and production costs estimated during the Nunn-McCurdy 
certification process. The EXCOM received those results in July 2008.
    The 2002 O&S estimate only included costs from the time of launch 
through the initial ten years of on-orbit life, while today we expect 
operations to last 17 years following initial launch. The recently 
completed estimate took into consideration some NPOESS Preparatory 
Project (NPP) costs that were not captured in the 2002 estimate. The 
recent estimate was also completed with far more knowledge of the 
system than the earlier estimate and consequently added more detail and 
accuracy to the overall life cycle cost estimate.
    Overall, the cost for operations and sustainment is not directly 
linked to the number of satellites, but the length of time the 
satellites will be on orbit and the corresponding costs to maintain the 
processing software, and the need for periodic updates of the ground 
processors. The recent estimate of operations costs better estimated 
the needs for software and processor updates and indicated that an 
additional $800 million is required to support the operations of the 
NPOESS program.

Q3b.  If the $1 billion is incorrect now in 2008 by $800 million, it 
must have been incorrect in 2006 when the program was being subjected 
to the Nunn-McCurdy certification process. Why was the figure not 
updated then, or even before?

A3b. As noted above, the Nunn-McCurdy process as defined by DOD for the 
NPOESS program only examined development and production costs, not 
operations and sustainment costs. This is why NOAA requested the NPOESS 
program provide a complete cost estimate following the restructure in 
Fall 2007. In March 2008, the EXCOM requested an independent cost 
estimate be completed by the CAIG and the final results were reported 
to the EXCOM in July 2008.

Q4.  If there are problems that still exist in the program that cannot 
be agreed to at the staff level, why are they not resolved at the 
periodic EXCOM (Executive Committee) meetings?

A4. Problems that cannot be resolved at the staff level are addressed 
at the EXCOM meetings. However, given the unique tri-agency structure 
of this program, the NPOESS program has found it challenging to 
navigate the bureaucracies of the three separate agencies to get final 
documents representing complex agreements signed in a timely manner 
even when agreed to in principle at EXCOM meetings. Progress has been 
made to improve the process within the tri-agency program during the 
last few months.

Q4a.  Please provide a detailed agenda of each EXCOM meeting since it 
was formed in 2006 and please detail what decisions were made in each 
meeting.

A4a. The following table provides the date of the nine EXCOM meetings 
conducted since it was formed in 2006, and a detailed list of decisions 
made at each meeting.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4b.  If an item on the agenda is not resolved at an EXCOM meeting, 
does it appear on the agenda for the next meeting?

A4b. Most decisions made by the EXCOM have been resolved at the meeting 
in which the issue was scheduled to be discussed. However, there have 
been a few complex issues in the program since the Nunn-McCurdy 
certification, which have been more difficult to resolve. Those issues 
were included on multiple agendas during the past few years and have 
also been addressed and brought to final decision through multiple 
principal level teleconferences and other meetings between formal EXCOM 
meetings.

Q4c.  Please detail the items on each agenda that were not resolved at 
the EXCOM meeting for which it was brought up and explain why no 
decision was agreed to.

A4c. As noted above, the EXCOM has been largely successful in resolving 
issues in the agenda at the time of the EXCOM. However, since the Nunn-
McCurdy Recertification, the issues of budget reconciliation and cost 
estimates, as well as Acquisition Decision Memorandum document 
resolution have been ongoing issues that took multiple meetings and 
other interactions to resolve as these issues were processed formally 
through each agency. As noted above, this unique tri-agency program has 
made progress in merging the disparate processes in each agency to get 
final decisions documented.
                              Appendix 2:

                              ----------                              


          Additional Material Submitted for the Hearing Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
